<html>
<title> - PROMOTING GLOBAL FOOD SECURITY: NEXT STEPS FOR CONGRESS AND THE ADMINISTRATION</title>
<body><pre>[Senate Hearing 111-779]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-779
 
    PROMOTING GLOBAL FOOD SECURITY: NEXT STEPS FOR CONGRESS AND THE 
                             ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
63-233                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80e7f0efc0e3f5f3f4e8e5ecf0aee3efedae">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
               Frank G, Lowenstein Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Bertini, Hon. Catherine, former executive director of the United 
  Nations World Food Programme, cochair, Global Agricultural 
  Development Initiative, the Chicago Council on Global Affairs, 
  Cortland, NY...................................................    35

    Prepared statement (joint statement with Secretary Glickman).    39


Glickman, Hon. Dan, former Secretary of Agriculture, cochair, 
  Global Agricultural Development Initiative, the Chicago Council 
  on Global Affairs, Washington, DC..............................    37

    Prepared statement (joint statement with Ms. Bertini)........    39


Kerry, Hon. John F., U.S. Senator from Massachusetts.............     1


Lew, Hon. Jacob, Deputy Secretary of State for Management and 
  Resources, Department of State, Washington, DC.................     6

    Prepared statement...........................................     9


Lugar, Hon. Richard G., U.S. Senator from Indiana................     3


Shah, Hon. Rajiv J., Administrator, U.S. Agency for International 
  Development (USAID), Washington, DC............................    11

    Prepared statement...........................................    14


              Additional Material Submitted for the Record

Prepared statement of Hon. Robert P. Casey, Jr., U.S. Senator 
  from Pennsylvania..............................................    53


Responses of Rajiv Shah to questions submitted by Senator 
  Christopher J. Dodd............................................    55


Wall Street Journal article submitted by Senator Richard G. Lugar    56


Letter from the Association of Public and Land-grant Universities    57


Letter from International Relief and Development Organizations...    58


``Farm Futures: Bringing Agriculture Back to U.S. Foreign 
  Policy,'' Catherine Bertini and Dan Glickman, Foreign Affairs, 
  Volume 88 No. 3................................................    59


                                 (iii)

  


                    PROMOTING GLOBAL FOOD SECURITY:
                      NEXT STEPS FOR CONGRESS AND
                           THE ADMINISTRATION

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Cardin, Casey, Shaheen, 
and Lugar.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order.
    Thank you all. Welcome.
    I want to thank Senator Lugar, who has been a passionate 
and committed advocate for a long time now, many decades 
really, for--on behalf of the world's hungry. And we all 
appreciate his leadership on this issue very, very much.
    We're also pleased to welcome, today, two officials who are 
the leading edge of our efforts to enhance food security, 
Deputy Secretary Lew and USAID Administrator Shah, and an 
outstanding panel of private witnesses.
    We have long viewed global hunger as one of our great, 
moral challenges. And all of us have been moved, at one point 
or another, by the stark images of hunger, of desperation, and 
particularly on the faces of the young children in many parts 
of the world. Food insecurity also poses a challenge to our 
broader development efforts, and yes, it is also a challenge to 
our national security. A lack of access to food leads to 
malnutrition, instability, and even violence. Food riots, 2 
years ago, in Cairo, Port-au-Prince, and other capitals, showed 
how food insecurity can drive conflict. And because as much as 
70 percent of the world's population is involved in agriculture 
activities, food security also has to be a cornerstone of our 
development strategy.
    As we gather here, on what is also Earth Day, we need to 
recognize that this already urgent challenge is poised to 
explode in the years ahead as climate change creates new 
strains on food supplies everywhere. I just point out to people 
that there are currently tribes fighting each other and people 
being killed in the Sudan because of desertification and 
because one tribe moves into another tribe's territory and 
tries to access the water, and there are struggles over those 
wells, and over that access to water. And it is a challenge to 
culture and to history and to tribal rights.
    The Obama administration has taken significant steps 
forward, including pledging $3.5 billion over the next 3 years, 
and establishing the Global Hunger and Food Security 
Initiative. Last year, this committee passed the Global Food 
Security Act, sponsored by Senators Lugar and Casey and myself, 
and it authorized a multiyear assistance to promote food 
security and rural development.
    To address this challenge, we need to reconnect with our 
decades-long record of success in improving agricultural 
productivity and feeding the world. We need to use our 
technology and expertise to help connect farmers with new 
possibilities and new markets. And alongside our food aid, we 
need to focus on longer term efforts designed to empower people 
in countries to meet their own food needs. That means, quite 
simply, investing in capacity-building, mechanical/technical 
assistance, improving local governance. And because small 
investments in women farmers can help feed entire villages, we 
need to make sure that our food security efforts reach the 
women, who make up 40 percent of all agricultural workers and a 
majority of the farmers in Africa.
    Taking on global food insecurity ultimately will 
significantly benefit our national security. We all understand 
that, in Afghanistan, our efforts to help farmers cultivate 
legitimate crops are crucial to rolling back the poppy 
cultivation that helps to fund the Taliban or other insurgent 
activities. And in Somalia, we've seen the World Food Programme 
forced to cut off aid to much of the country, due to threats to 
its workers and the demands of al-Shabaab. And we've also seen 
alarming reports of assistance being diverted into the hands of 
militants and corrupt contractors.
    So, this hearing comes at a moment when our international 
affairs budget is, regrettably, once again being challenged. 
Even in a tough budget environment, short-changing programs 
like these, in our judgment, will deliver little budget relief, 
at enormous negative consequence to our global efforts. The 
Defense Department budget is about $708 billion, the State 
Department budget is about 58. It totals about 1.4 percent of 
the total budget of the United States of America and one-
sixteenth of our national security budget. And it seems to me 
that it is wrong, and we will fight against any efforts to 
reduce the President's request for a small increase, which is 
essential to the transformation of our foreign policy efforts, 
and, frankly, to the recalibration of the allocation of 
resources between defense and diplomacy in humanitarian 
efforts.
    Dr. Shah, we are very pleased to welcome you back to the 
committee. I might remind people that 1 week after Dr. Shah 
took office as Administrator of USAID, the devastation of 
Haiti's earthquake presented his agency, and him, with one of 
the most severe humanitarian disasters our hemisphere has ever 
seen. And we're all grateful for his efforts, and for those of 
his team, and for the State Department.
    In the days ahead, I plan to join with Senator Lugar and 
other colleagues in introducing a comprehensive assistance bill 
that will address Haiti's food insecurity as part of our plan 
to rebuild in a better way.
    We're also very, very pleased to have with us Deputy 
Secretary Jack Lew. I think all of us know that he is one of 
our real experts in the management and in analyzing the 
resource challenges that we face, in addressing global hunger 
and global poverty.
    On our second panel, we'll hear from two very knowledgeable 
experts: Catherine Bertini, who served as executive director of 
the World Food Programme from 1992 to 2002, and in 2003 she was 
awarded the World Food Prize for her efforts to combat hunger. 
She recently cochaired a Chicago Council on Global Affairs 
report on renewing American leadership in the fight against 
global hunger and poverty. And also, Dan Glickman, the 
Secretary of Agriculture, an old friend of this committee and 
of the Congress, a former member himself. He was Secretary of 
Agriculture from 1995 to 2001, and the Congressman from the 
Kansas 4th Congressional District for 18 years, before that.
    So, we have a lot of expertise to draw on today, and we 
look forward, very much, to this testimony.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Senator Kerry, I join with you in welcoming 
our witnesses, and I thank you very much for scheduling this 
timely hearing.
    We look forward to the testimony from Secretary Lew and 
Administrator Shah, who keenly understand the role that 
alleviating hunger and poverty plays for U.S. national security 
and global stability. I look forward to their presentations of 
the administration's Global Hunger and Food Security 
Initiative.
    I also welcome Dan Glickman and Catherine Bertini, who will 
testify on the second panel. It was my privilege, when I was 
chairman of the Agriculture Committee, to welcome Secretary 
Glickman on a number of occasions, in previous life, and it's 
delightful to have him back in the Foreign Relations Committee 
today. Through their work with the Chicago Council on Global 
Affairs and other endeavors, they have elevated our 
understanding of the causes and consequences of hunger, and 
have made valuable recommendations to policymakers in the 
executive and legislative branches.
    We live in a world where more than 1 billion people suffer 
from chronic food insecurity, a figure that has increased by 
nearly 100 million people since Senator Casey and I introduced 
our legislation just last year. An estimated 25,000 people die 
each day from malnutrition-related causes. Experts advise us 
that chronic hunger leads to decreased child survival, impaired 
cognitive and physical developments of children, and weaker 
immune-system functions, including resistance to HIV/AIDS.
    These grave humanitarian consequences are sufficient cause 
for us to strengthen our approach to global food security. But, 
we have an even bigger problem. A dangerous confluence of 
factors threatens to severely limit food production in some 
regions as the world's population continues to expand. Between 
1970 and 1990, global aggregate farm yield rose by an average 
of 2 percent each year. Since 1990, however, aggregate farm 
yield has risen by an annual average of just 1.1 percent. These 
trends threaten the fundamental welfare of a large share of the 
world's population. Here are the basic parameters of the 
problem:
    First, the world's population is projected to increase to 
about 9.2 billion people by 2050. Growing affluence in China, 
India, and elsewhere, is increasing demand for resource-
intensive meat and dairy products. As a consequence, it's 
estimated the world's farmers will have to double their output 
by 2050.
    Second, food security is closely tied to volatile energy 
costs. Farming is an energy-intensive business. Energy price 
spikes in the future may hit with even great ferocity than the 
spike in 2007-2008.
    Third, water scarcity will worsen in response to population 
growth, urbanization, land-use pressures, and the effects of 
climate change. There could be 4 billion people who suffer from 
chronic water shortages by 2050.
    Fourth, climate change is challenging farmers on every 
continent that deal with altered weather patterns, novel 
agricultural pests, and new water conditions.
    Despite these alarming trends, investments in agriculture 
have tumbled since the 1980s. In 2007, rich countries devoted a 
mere 4 percent of their foreign assistance to agriculture. In 
Africa, which has severe food problems, donor aid to the farm 
sector plunged from $4.1 billion in 1989 to just $1.9 billion 
in 2006. Africa's per capita production of corn, its most 
important staple crop, has dropped by 14 percent since 1980.
    Equally troubling are sharp cutbacks in research into new 
technologies, farming techniques, and seed varieties that could 
increase yields, cope with changing climate conditions, battle 
new pests and diseases, and make food more nutritious. Trade 
policy of both developed and developing countries has too often 
focused on protecting domestic farmers, rather than creating 
well-functioning global markets.
    These trends have troubling implications for national 
security and global stability. Hungry people are desperate 
people, and desperation can sow the seeds of radicalism. 
Without action, the frequency and intensity of food riots may 
increase. We almost certainly will have to contend with mass 
migration and intensifying health issues stemming from 
malnutrition.
    Our diplomatic efforts to maintain peace will be far more 
difficult wherever food shortages contribute to extremism and 
conflict. Our hopes for economic development in poor countries 
will continually be frustrated if populations are unable to 
feed themselves.
    In short, overcoming hunger should be one of the starting 
points for U.S. foreign policy.
    With these factors in mind, Senator Bob Casey and I 
introduced, with the support of the chairman, the Global Food 
Security Act of 2009. We believe the bill has served as a 
practical starting point for the administration's initiative 
and as a rallying point for those who agree that food security 
should play a much larger role in our national security 
strategy.
    The bill would make long-range agricultural productivity 
and rural development a top development priority. The Lugar-
Casey bill, which was passed by the Foreign Relations Committee 
on May 13, 2009, is the product of extensive study involving 
numerous foreign-country visits and consultations with 
agriculture and development experts.
    Over the course of the last year, the administration, under 
Secretary Clinton's leadership, has undertaken its own 
intensive study of food security. As we have compared notes 
with administration officials, it has become clear that the 
Secretary's Global Hunger and Food Security Initiative has 
reached many of the same conclusions as we reached on the most 
efficient ways to expand food production and to address hunger.
    Both the Lugar-Casey bill and the Global Hunger and Food 
Security Initiative both focus on increasing agricultural 
productivity and incomes, promoting research and technology, 
being attentive to the special role of women farmers, and 
emphasizing the nutritional needs of children. Both initiatives 
would construct partnerships with host-country governments, 
indigenous organizations, institutions of higher learning, and 
the private sector.
    I am particularly pleased that discussions with the State 
Department have progressed so that we will soon be able to 
unveil a bill that represents a consensus among the 
administration, House, and Senate sponsors, and nongovernmental 
partners.
    As a farmer who has seen agriculture yields more than 
triple during my lifetime on my own family farm in Marion 
County, IN, I have faith that human ingenuity can avert a 
Malthusian disaster. But, we need to focus resources for 
innovation to take root, we have to apply all the agricultural 
tools at our disposal.
    Some take positions that effectively deny African countries 
advanced biotechnologies that could dramatically improve farm 
yield. Such positions failed to grasp the enormity of a global 
hunger threat, or the difficulty of doubling global farm yields 
in the next four decades, despite the complications that could 
result from water shortages, climate change, and many other 
unpredictable factors.
    We should partner with nations in research pursuits, based 
on their own country-led strategies: We should neither dictate 
nor withhold technological innovations from which they could 
benefit.
    I believe the the food-security challenge is an opportunity 
for the United States. We are the indisputable leader in 
agricultural technology. A more focused effort on our part to 
join with other nations to increase yields, create economic 
opportunities for the rural poor, and broaden agricultural 
knowledge, could strengthen relationships around the world and 
open up a new era in U.S. diplomacy.
    I thank the chairman, again, for holding this important 
hearing, and look forward to the discussion with our witnesses.
    The Chairman. Thank you, Senator Lugar, very much.
    Mr. Secretary, would you lead off, please, and then the 
Administrator? And we look forward to hearing from you.
    You can summarize your testimonies. The full testimony will 
be placed in the record as if read in full. Thank you.

  STATEMENT OF HON. JACOB LEW, DEPUTY SECRETARY OF STATE FOR 
 MANAGEMENT AND RESOURCES, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Lew. Thank you very much, Mr. Chairman, Senator Lugar, 
members of the committee. It's really a pleasure to be here to 
have the opportunity to speak with you about the Feed for the 
Future Program, the administration's Global Hunger and Food 
Security Initiative.
    We applaud the committee, and members of this committee and 
the leadership, for the work you've done on food-security 
legislation. It's really laid a foundation, and it began well 
before our efforts on food security were undertaken. We look 
forward to continuing to work with you as we go forward and 
implement the program effectively.
    Mr. Chairman, thank you for your comments on the budget in 
your opening remarks. It's obviously a subject of deep 
importance to us. And it's central to our ability to accomplish 
all the goals that we're talking about here today, to 
accomplish our goals in Afghanistan, Pakistan, and Iraq. And 
it's really a central national security priority for the 
administration. So, thank you for your leadership on that, as 
well.
    President Obama and Secretary Clinton have committed the 
United States to a new vision for development, one that 
embraces development as a strategic, economic, and moral 
imperative as central to solving global problems and advancing 
American national security as diplomacy and defense. Our goal 
is to balance, align, and leverage these three D's as we pursue 
our national objectives in accordance with our fundamental 
values. This is a core characteristic of smart power and a 
guiding principle of our work around the world.
    The strategy for Feed the Future exemplifies our new vision 
for development, more broadly. It starts with the recognition 
that food security is not just about food. It's also about 
security--national security, economic security, environmental 
security, and human security.
    In too many places, agriculture is so deteriorated that 
people cannot grow enough food to feed their families, to 
earn--or to earn an income from selling their crops. As a 
result, cities and villages throughout the developing world--
it's often the case that food is scarce and that prices are 
volatile, and the prices are beyond what people can afford to 
pay.
    This broken system fosters hunger and, too often, poverty, 
which leads to violence and political instability. Since 2007, 
when global food prices skyrocketed, there have been food riots 
in more than 60 countries. Food insecurity also contributes to 
tensions between nations, and restrictions on exports during 
the food price crisis limited the flow of food and sent prices 
even higher in neighboring countries.
    Through the Feed the Future Program, we seek to make 
strategic, long-term investments that address the root causes 
of hunger and poverty by increasing agricultural productivity, 
boosting rural incomes, and improving household nutrition. As 
we have seen in country after country throughout history, 
agriculture can be a powerful engine for broad economic growth. 
The Green Revolution that began in the 1960s led to soaring 
productivity rates in India and other countries in Asia and 
Latin America. By improving agriculture and nutrition, the 
United States has the chance to help a significant number of 
people around the world, and, in doing so, to protect our own 
security, and lay the foundation for a more peaceful and 
prosperous world.
    Earlier this year, Secretary Clinton set forth a vision 
that reflects our strong commitment to development. Feed the 
Future reflects that vision.
    First, we're concentrating our work in specific sectors 
where we, the United States, have a comparative advantage. In 
the past, we've invested in many programs across many fields, 
often spreading ourselves too thin and reducing our impact. 
Through Feed the Future, we will target our investments and 
develop technical excellence in agriculture and nutrition to 
help catalyze broad and sustainable change in countries.
    Second, this initiative integrates our diplomatic and 
development efforts. Feed the Future will require the best of 
our development efforts in each country, and will also require 
strong, diplomatic support to coordinate with other donors and 
work with host countries.
    With that in mind, Secretary Clinton has recently named two 
very senior Foreign Service officers to lead this initiative. 
Ambassador Patricia Haslach will serve as Deputy Coordinator 
for Diplomacy, and Ambassador William Garvelink will serve as 
Deputy Coordinator for Development.
    Third, as we work to connect development and diplomacy to 
get better results, we've adopted an expansive whole-of-
government approach. It's led by a joint team at the State 
Department and USAID, and it's my honor to be testifying here 
today with my colleague and friend, Administrator Shah.
    In addition to State and USAID, we're bringing in the 
expertise from the Department of Agriculture, the Office of the 
U.S. Trade Representative, the Treasury Department, the 
Millennium Challenge Corporation, the Department of Health and 
Human Services, and a number of other agencies. It's a 
challenge to organize across government, and we have to 
demonstrate our ability to manage this program as one, with 
many areas of expertise.
    Fourth, our commitment to partnership extends not only to 
the countries where we work, but to other countries and 
organizations working there, as well. Treasury Secretary Tim 
Geithner is announcing, today, our investment in the World 
Bank's Global Agriculture and Food Security Program. Our 
initial contribution of $475 million includes $67 million which 
was appropriated in FY 2010. And it's already helped encourage 
$400 million in investments from Spain, Canada, the Republic of 
Korea, and from the Bill and Melinda Gates Foundation. The 
diversity of these donors reflects a growing engagement in 
foreign assistance and the vital role that other stakeholders--
including foundations, NGOs, and the private sector--will play 
in this initiative as we move forward.
    Fifth, and perhaps most critically, Feed the Future applies 
a model of development based on partnership, not patronage. Our 
new approach is to work in partnership with developing 
countries that take the lead in designing and implementing 
evidence-based strategies with clear goals that address their 
unique needs. One of the best lessons we have learned from past 
aid programs is that clear country ownership and commitment are 
absolutely critical to long-term success.
    Women and girls are at the heart of this initiative. A 
majority of the developing world's farmers are women, and it 
will simply not be possible to make significant progress in 
enhancing food security and improving nutrition and fighting 
poverty without creating more economic opportunities for women.
    There's a proverb that speaks to a central lesson in 
development: ``Give a man a fish and he'll eat for a day, but 
teach a man to fish and he'll eat for a lifetime.'' Secretary 
Clinton has offered an addition to that proverb: ``If you teach 
a woman to fish, she'll feed her whole village.''
    Through Feed the Future, we will also increase our 
investment in innovation. Given the potentially enormous return 
on investment, we will invest in approaches that confront 
significant threats to food production, such as crop and 
livestock disease, the decline in soil fertility, and the 
challenges of climate change.
    Sixth, our approach will focus on results and on progress 
that can be sustained over time. We are working with countries 
to develop approaches that strengthen the entire agricultural 
chain, from the lab to the farm to the market, and, finally, to 
the table. At each link in the agricultural chain, we will work 
with our partners to strengthen in-country capacity, create 
sustainable practices, and put in place accountability 
mechanisms that measure the impact of our investment. We will 
scale up efforts that yield strong results, and learn from 
those that indicate that improvement is necessary. And we will 
share evidence of our progress, or underperformance, should 
that be the case, with the public.
    For too long, developed nations, including the United 
States, have believed that food aid alone was the right 
response to hunger. This approach fell short of creating 
sustainable solutions, and inadvertently created a sense of 
dependency that has held countries back.
    I want to be clear that Feed the Future will not supplant 
emergency food aid. As we all saw in Haiti so recently, 
emergency food assistance is a vital tool for saving lives, and 
it will continue to be so. But Feed the Future offers a 
different approach. It takes the next critical step: investing 
in our partners' futures by spurring long-term economic 
progress.
    Today, the United States has a unique opportunity. Our 
country, and many others around the world, have made 
significant commitments to this issue. We have learned 
important lessons from the past which we are applying today. 
And the need for our leadership is greater than ever.
    Mr. Chairman, Ranking Member Lugar, and Senate members of 
the committee, again, I want to thank you for your tireless 
work to combat global hunger, and your leadership on this issue 
of food security. We look forward to the hearing today, and to 
continuing to work together on this critical issue.
    Thank you.
    [The prepared statement of Mr. Lew follows:]

  Prepared Statement of Hon. Jacob Lew, Deputy Secretary of State for 
     Management and Resources, Department of State, Washington, DC

    Chairman Kerry, Ranking Member Lugar and members of the committee, 
thank you for this opportunity to speak with you about Feed the Future, 
the administration's global hunger and food security initiative. We 
applaud the committee's leadership on food security legislation which 
underscores the critical importance of this initiative to addressing 
global hunger. Many of you were working on this issue long before this 
initiative began. And we look forward to continuing to work with you 
and your staff on this vital cause.
    Let me begin by setting the context for our work. President Obama 
and Secretary Clinton have committed the United States to a new vision 
for development--one that embraces development as a strategic, 
economic, and moral imperative, as central to solving global problems 
and advancing American national security as diplomacy and defense. We 
seek to balance, align, and leverage these three D's as we pursue our 
national objectives in accordance with our fundamental values. This is 
a core characteristic of smart power and a guiding principle of our 
work around the world.
    The strategy for Feed the Future exemplifies our new vision for 
development. It starts with the recognition that food security is not 
just about food, but it is all about security--national security, 
economic security, environmental security, and human security.
    In too many places, agriculture has deteriorated to such a degree 
that people cannot grow enough to feed their families or earn an income 
from selling their crops. Or, if they can grow the food, they have no 
way of transporting it to local or regional markets. As a result, in 
cities and villages throughout the developing world, food is at times 
scarce and prices can be volatile and often beyond what people can 
afford.
    This broken system fosters hunger and poverty. That, in turn, can 
lead to violence and political instability. Since 2007, when global 
food prices skyrocketed, there have been riots over food in more than 
60 countries. People's inability to grow or purchase food has shaken 
fragile governments. In Haiti, the Government fell after violent 
demonstrations over the rise of food and fuel prices. Food insecurity 
has also contributed to tensions between nations; for example, 
restrictions on food exports during the crisis limited the flow of food 
and sent prices even higher in neighboring countries. And, hunger has a 
cascading effect for families and communities; it makes people more 
vulnerable to illness and disease and makes it harder for children to 
learn and adults to work--which further deepens poverty.
    At the G8 Conference in L'Aquila, Italy, last year, President Obama 
spoke of the billion people worldwide who endure hunger, and said, 
``Wealthier nations have a moral obligation as well as a national 
security interest in providing assistance.'' We want to deliver that 
assistance in a manner that does not only temporarily alleviate hunger 
for some, but attacks the problems of hunger, poverty, and malnutrition 
at their roots, leading to sustainable and systemic progress on a broad 
scale.
    This is what we are striving to accomplish with Feed the Future. We 
seek to make strategic, long-term investments that will increase 
agricultural productivity, boost rural incomes, and improve household 
nutrition. As we have seen in country after country throughout history, 
agriculture can be a powerful engine for broader economic growth--
particularly in developing countries, where agriculture can account for 
more than one-third of total economic output and more than half of the 
total workforce. The Green Revolution that began in the 1960s led to 
soaring productivity rates in India and other countries in Asia and 
Latin America. In East and Southern Africa, the application of 
scientific innovations to maize production led to yield increases of 1-
5 percent per year, comparable to growth rates in the United States. By 
improving agriculture and nutrition, the United States has the chance 
to help a significant percentage of the world's people achieve the 
stability, prosperity, and opportunity to which we all aspire. And, in 
so doing, we can protect our own security, promote our own interests, 
and lay the foundation for a more peaceful and prosperous future.
    Earlier this year, Secretary Clinton set forth a vision that 
reflects our strong commitment to development. Feed the Future is an 
exemplar of that vision.
    First, we are concentrating our work in specific sectors where we 
have a comparative advantage. In the past, we've invested in many 
programs across many fields, often spreading ourselves thin and 
reducing our impact. Through Feed the Future, we will target our 
investments and develop technical excellence in agriculture and 
nutrition, to help catalyze broad, sustainable change in countries.
    The President's FY 2011 budget request includes $1.6 billion for 
Feed the Future, reflecting the President's pledge to invest a minimum 
of $3.5 billion in agricultural development and food security over 3 
years. We are committed to leveraging this investment through a number 
of coordinated funding mechanisms that reinforce and leverage one 
another. In addition, the budget request includes $200 million to fund 
nutrition programs in the Global Health Initiative that will be 
coordinated with and integral to Feed the Future.
    Second, this initiative aligns our diplomatic and development 
efforts. Feed the Future will require the best of our development 
efforts in each country, and will also require strong diplomatic 
support to coordinate with other donors and work with host governments. 
Our diplomats will reinforce our development experts, and vice versa. 
With that in mind, the Secretary recently named two senior Foreign 
Service officers to lead this initiative: Ambassador Patricia Haslach, 
who will serve as Deputy Coordinator for Diplomacy, and Ambassador 
William Garvelink, who will serve as Deputy Coordinator for 
Development.
    Third, as we work to connect development and diplomacy to get 
better results, we have adopted an expansive whole-of-government 
approach. Led by a joint team at the State Department and USAID, Feed 
the Future brings together the Department of Agriculture's expertise on 
agricultural research, the U.S. Trade Representative's efforts on 
agricultural trade, the Treasury Department's close partnership with 
multilateral institutions, and the contributions of many other 
agencies, including the Millennium Challenge Corporation and the 
Department of Health and Human Services.
    Fourth, the administration's commitment to partnership extends not 
only to the countries where we work, but to other countries and 
organizations working there as well. That is why the budget includes 
$408 million for multilateral institutions--funds that will harness 
additional support and expand our impact. These funds, along with the 
$67 million appropriated in FY 2010, will enable the USG to contribute 
$475 million as a founding investor of a new multidonor trust fund 
managed by the World Bank. Treasury Secretary Tim Geithner is 
announcing this investment in the World Bank's Global Agriculture and 
Food Security Program today. The administration's initial pledge of $67 
million helped encourage $400 million in investments from Spain, 
Canada, the Republic of Korea, and the Bill and Melinda Gates 
Foundation. The diversity of these donors reflects a growing engagement 
in foreign assistance and the vital role that other stakeholders--
including foundations, NGOs, and the private sector--will play in this 
initiative as we move forward.
    Since last year, when President Obama announced the $3.5 billion 
American commitment to combat poverty and hunger, 193 countries have 
endorsed a common set of principles in a collective effort to combat 
the reality of global hunger and food insecurity. Our global commitment 
must be commensurate with the problem we are facing. The U.S. 
contribution through Feed the Future is a portion of the global 
commitment--including more than $18.5 billion from other donors--which 
has helped move hunger to the front of the global development agenda.
    Fifth, and perhaps most critically, Feed the Future applies a model 
of development based on partnership, not patronage.
    Our new approach is to work in partnership with developing 
countries that take the lead in designing and implementing evidence-
based strategies with clear goals that address their unique needs. One 
of the best lessons we have learned from past aid programs is that 
clear country ownership and strong country commitment are absolutely 
critical to long-term success.
    We are working with countries to develop approaches that strengthen 
the entire agricultural chain--from the lab, where researchers develop 
higher performing seeds; to the farm, where we can help improve 
productivity through better water management, fertilizer use, and 
farmer training; to the market, where we're helping to share product 
information and build the infrastructure that will let people process, 
store, and transport their crops more effectively; and finally to the 
table where families break their daily bread. Our objective is to give 
people the opportunity to buy and grow nutritious food and receive a 
balanced diet.
    And we will ensure that women and girls are at the heart of this 
initiative. A majority of the developing world's farmers are women and 
it will simply not be possible to make significant progress in 
enhancing food security, improving nutrition, and fighting poverty 
without creating more economic opportunities for women.
    There's a proverb that speaks to a central lesson of development: 
``Give a man a fish and he'll eat for a day, but teach a man to fish 
and he'll eat for a lifetime.'' Secretary Clinton has offered an 
addition to that proverb: if you teach a woman to fish, she'll feed her 
whole village. We recognize the power of women to lead change in their 
communities and countries. So we are working to ensure that women have 
equal access to seeds, education and financial services, and that they 
play an equal role in leadership and decisionmaking in all of our 
programs.
    Through Feed the Future, we will also increase our investment in 
innovation. Simple technologies like cell phones can help farmers learn 
the latest local market prices, conduct mobile banking, know in advance 
when a drought or a flood is on its way, and learn about new seeds that 
can help corn grow in drought conditions. Given the potentially 
enormous return on investment, Feed the Future will invest in 
approaches that confront significant threats to food production, such 
as crop and livestock diseases, the decline in soil fertility, and the 
challenges of climate change.
    Sixth, our approach will focus on results, and on progress that can 
be sustained over time.
    At each link in the agricultural chain we will work with our 
partners to strengthen in-country capacity, create sustainable 
practices, and put into place accountability mechanisms that measure 
the impact of our investment. We will keep in mind that the right thing 
to do in one country may not be the right thing in another. We will 
scale up the efforts that yield strong results and learn from those 
that indicate that improvement is necessary. And we will share the 
proof of our progress--or underperformance should that be the case--
with the public.
    Secretary Clinton has insisted that we measure our results, not 
just by tallying the dollars we spend or the number of programs we run, 
but by the lasting changes that these dollars and programs help achieve 
in people's lives.
    For too long, developed nations, including the United States, have 
believed that food aid alone was the right response to hunger. We tried 
to alleviate hunger for all the right reasons, but our approach fell 
short of creating sustainable solutions--and inadvertently created a 
sense of dependency that has held countries back.
    I want to be clear that Feed the Future will not supplant emergency 
food aid. As we recently saw in Haiti, emergency food assistance is a 
vital tool for saving lives, and will continue to be. But with Feed the 
Future, we take the next critical step: investing in our partners' 
futures by spurring long-term economic progress.
    Today, the United States has a unique opportunity. Several critical 
factors have converged. Our country and many others around the world 
have made significant commitments to this issue. We have learned 
important lessons from the past, which we are applying today. And the 
need for our leadership is greater than ever. One billion people around 
the world go to bed hungry every night. We can help change the 
conditions that cause hunger, and replace them with conditions that 
lead to greater opportunity, health, stability, and prosperity for 
people worldwide. It's an opportunity too valuable to let pass us by.
    Chairman Kerry, Ranking Member Lugar and members of the committee, 
thank you again for your tireless work to combat global hunger and food 
insecurity. We look forward to continuing our joint efforts on this 
critical issue.

    The Chairman. Thanks a lot, Secretary Lew.
    Administrator Shah.

STATEMENT OF HON. RAJIV J. SHAH, ADMINISTRATOR, U.S. AGENCY FOR 
       INTERNATIONAL DEVELOPMENT (USAID), WASHINGTON, DC

    Dr. Shah. Good morning, Chairman Kerry, Ranking Member 
Lugar, and members of the committee.
    Mr. Chairman, I also want to thank you for your comment 
about Haiti, and for your personal guidance and support in the 
early days of that crisis.
    And, Senator Lugar, to your continued guidance, especially 
on this issue, we agree fully that the administration's 
conclusions are quite consistent with the great work that you 
and your staff, and others, including Senator Casey, have done 
over a number of years.
    Today is Earth Day, so it is worth underscoring the 
tremendous challenge of eliminating hunger in the context of a 
growing population, where erratic climate events, such as 
droughts and floods, are clearly on the rise, and where water 
resources are more scarce, and will become more scarce, than 
ever before.
    The World Bank just noted, this week, that an additional 65 
million people will be pushed into extreme poverty by the end 
of this year, continuing a tremendous and negative trend that 
has now taken place for 2 years and directly affects the number 
of hungry people worldwide, but especially, and most acutely, 
in Africa.
    Global food supplies, as you noted, need to increase by an 
estimated 50 percent by 2030, and double by 2050, to meet 
increased demands that are caused by a number of factors, 
including demand for meat and poultry products, and more grain-
intensive foods, in certain parts of the world.
    And most notably, the most vulnerable populations, the 
rural poor in Africa, Asia, and parts of Latin America, are 
going to be on the front line of bearing the brunt of this 
negative trend. As one example, Asian rice yields are projected 
to decrease by 25 percent without new technologies and new 
production systems that will reverse the trend of lowered 
agricultural productivity.
    Going forward, our initiative will focus on comprehensive 
agricultural development and food-security efforts. We will 
focus on those markets, and in those countries, where 
agriculture is more than two-thirds of total employment, more 
than one-third of total GDP, and often in places where families 
easily spend more than 70 percent of total income securing food 
for themselves. These are the most vulnerable parts of the 
world, and the parts where, according to the 2008 World 
Development Report, our investments can have the most outcome, 
in terms of improving people's resiliency against hunger and 
food shortages.
    With your support, the United States is bringing real 
leadership to this task. The President and the Secretary have 
launched this initiative, and, in doing so, have laid out 
specific principles, many of which referenced by Secretary Lew, 
that will guide our implementation. These principles--working 
in partnership, focusing on science and technology, leveraging 
our areas of comparative advantage, engaging more directly with 
women, who are more than 70 percent of all producers in the 
places where we work--will, together, allow us to achieve a 
transformation of the agricultural and food-system sectors in 
the countries in which we will focus, as opposed to our long 
history of simply implementing projects of modest scale and 
modest scope.
    We are moving aggressively to implement the strategy we 
have outlined. First, we are pursuing development of country-
led plans. As of July 2009, only one country in Africa--
Rwanda--had a comprehensive national agricultural plan 
consistent with the principles that they, themselves, had 
outlined. Today, there are 17; and by the end of June, there 
will be 25. These will be the bases of the programs and plans 
that will guide our investment, going forward. They coordinate 
the effort of multiple stakeholders behind a single process, 
and they serve as a point of coordination for donors around the 
world to come together and, in an organized way, support a real 
agricultural transformation in these places.
    Second, in science, technology, and innovation, we will 
pursue a two-part strategy that will focus both on a focused, 
sustainable intensification in those crop categories that are 
most important--maize, wheat, rice, cassava, sorghum, et 
cetera. We--for too long, there's been a real neglect in 
agricultural research, and international agricultural research, 
and too many differentiated goals that have downplayed the role 
of core productivity improvements. So, we'll refocus our 
efforts in that area.
    But, we will also focus on sustainable production systems 
that are very specific and very tied to the places in which we 
work--highland maize in east Africa, stress-tolerant rice in 
Asia--those places where we know we can find breakthroughs that 
will save tens of millions of people from a future of suffering 
related to hunger and extreme poverty.
    What that strategy will also allow us to do is better 
connect global technological innovations, such as drought-
tolerant genetics that exist in the United States, with 
specific national research institutes and the local extension 
systems that can make sure those technologies actually reach 
the small-holder farmers, who, at the end of the day, are a big 
part of the solution.
    Third, we will work across markets and a market-led effort 
to create real, vibrant, resilient food systems. For example, 
we're using our development credit authority, a tool that USAID 
has to motivate credit and lending in specific sectors, to 
dramatically expand access to credit in the countries in which 
we will focus, and to do that in partnership with local 
microfinance organizations and local banks, so that small 
farmers and small agribusinesses can gain access to credit in 
order to improve their efforts.
    Fourth, as Secretary Lew mentioned, we will prioritize 
women. Seventy percent of African farmers are women, and yet, 
less than 10 percent of them have access to credit, and only 5 
percent of agricultural extension workers on the continent are 
women. So, we will be very specific about disaggregating 
income. We will target outcomes, such as gender disaggregated 
income, and study women's incomes. We will specifically target 
women through our extension programs. And we will look to make 
sure our partners are hiring and training women in all aspects 
of our work.
    And fifth, we will focus on results and accountability. We 
know that agricultural GDP growth is three to six times more 
likely to reduce poverty than generalized growth. And we need 
to measure outcomes by studying household-level income effects, 
child undernutrition, and agricultural productivity rates, 
basic measures that we collect everywhere in the world, but too 
often, in our agricultural development programs, have neglected 
to do the research to collect that information.
    I also want to assure you of my personal commitment, and 
USAID's strong commitment, to working in a whole-of-government 
effort to make sure that we succeed. We will work with our 
partners at the State Department, in close coordination, to 
make sure that we get other countries to invest in these plans 
and invest in these efforts, alongside our efforts. A true 
transformation will require a global effort. That was the 
spirit of the President's launching this at last years' G8, and 
continues to be the spirit in which we implement.
    We work closely with USDA in specific areas, where USDA has 
technical resources, in livestock genetics and other areas that 
can make a big difference as we take this forward.
    And we've reorganized ourselves at USAID to more 
effectively help lead this effort. We have a Food Security Task 
Team, led, as Secretary Lew mentioned, by Ambassador Bill 
Garvelink. And we are reallocating funding authority so we can 
make the kinds of central investments in collecting, monitoring 
information, in doing household surveys, and in funding global 
research efforts in a way that's efficient and strategic.
    We will need to continue to consult with you, and we will 
continue to ask for your support so that we can expand the base 
of agricultural experts we have that can help partner with 
countries to implement this program.
    In closing, I just wanted to note that, as has been 
mentioned, this initiative has really been structured around 
areas we think of as our comparative advantage: our strong 
agricultural productivity, our rich legacy in science and 
technology, and our ability to transform agricultural systems 
around the world. It was, in fact, a USAID Administrator, 
William Gaud, who, a number of years ago, coined the term, 
Green Revolution, based on the very impressive research and 
diplomatic efforts of Dr. Norman Borlaug. And President Obama 
and Secretary Clinton have mobilized a huge global effort to 
make sure that the whole world stands with us as we try to do 
this.
    So, I'm very optimistic about our potential, and I'm eager 
to take questions and continue to benefit from your guidance.
    Thank you.
    [The prepared statement of Dr. Shah follows:]

 Prepared Statement of Dr. Rajiv Shah, Administrator, U.S. Agency for 
               International Development, Washington, DC

    Good morning Chairman Kerry, Ranking Member Lugar, and members of 
the committee. Thank you for the opportunity to update you on the 
administration's food security initiative, Feed the Future and our 
efforts to address global food security. As your leadership has 
highlighted, food security is one of the highest priorities for U.S. 
development assistance. Food security ranks as a high development 
priority not simply because the United States is determined to meet our 
moral obligation as a great nation. The food security of developing 
nations is integral to our national security--hunger and poverty 
perpetuate instability, and food shortages are acutely destabilizing. 
Developing bodies and developing economies both need steady sustenance 
to thrive. Food security facilitates stable lives and sturdy, resilient 
nations. Our comprehensive approach seeks to respond to the staggering 
scope of the food security problem, a problem that has expanded in size 
in the past few years, affecting the lives of more than 1.1 billion 
people who suffer daily from want of this most basic of human need.
    There is growing momentum and a higher level of cooperation to 
address this problem on a global level. As a result of the President's 
efforts at L'Aquila, our international partners have made a commitment 
of $22 billion to combat food insecurity over the next 3 years. Global 
leaders agreed to a set of common principles for effective 
coordination, aligned behind country-led strategies, meaningful 
investment planning that would be supported by developing countries 
themselves, as well as through development assistance and other 
support. Those principles were reaffirmed by 120 countries in Rome last 
November. And just last week, Canada hosted the donor community for a 
review of the commitments made last summer, highlighting transparency 
and accountability to the L'Aquila agenda, as well as the pledges made 
to accomplish it.
    Members of Congress, especially members of this committee, are 
determined to address this problem. Increased budgets for agriculture 
development and continued support for global food security legislation 
have brought renewed attention to how agricultural-led growth can 
reduce poverty and hunger. The Global Food Security Act, sponsored by 
Senators Lugar and Casey, captures the strong commitment of the United 
States to align resources behind approaches that work. I would like to 
personally thank you both, as well as Representatives McCollum and 
McGovern, for your leadership on this critical initiative. We look 
forward to working with you on this important legislation as it moves 
forward.
    With a broad base of support, coordination within the international 
community, and leadership from both ends of Pennsylvania Avenue, we can 
capitalize on this momentum to leverage a global effort of significant 
proportions to fight hunger and undernutrition.
    It was a predecessor of mine, USAID Administrator William Gaud, who 
coined the term Green Revolution. That this term is known around the 
world is a testament to what U.S. leadership can mean. The 
administration's FY 2011 budget request reflects a coordinated, 
governmentwide strategy that expands support for both bilateral and 
multilateral assistance programs. We recognize that this is a tough 
budgetary time and that coming from such a low budget base for 
agriculture as recently as 2008, the FY 2011 budget looks ambitious. 
But this is one of our highest priorities and will require resources 
that address the scale of a problem affecting a billion people very 
directly and millions more globally. To illustrate just how far things 
had fallen, in 1982, USAID had an agricultural budget of $1.2 billion. 
That is equivalent to $2.9 billion today. In 1979, agricultural 
programs made up 18 percent of all development assistance, and 
productivity gains in the developing world were running 3 percent per 
year and generating enormous benefits. By 2008, agriculture's share had 
dropped to just 3.5 percent of development assistance, while 
productivity growth of developing country farmers lagged at less than 1 
percent growth per year, not enough to meet growing needs and far below 
what is needed to drive poverty reduction. The result of 
underinvestment in agriculture is clear.
    The global agricultural system is more interconnected today than it 
was during the first Green Revolution. What happened in global food 
markets in 2007-08 showed just how vulnerable the poor are in the face 
of price shocks. But this complexity also opens new pathways to 
success. For example, the rapid rise and transformation of small-scale 
dairy--in countries as diverse as Kenya and India--involves not only 
the introduction of modern animal husbandry practices but also the 
development of modern marketing chains. New enterprises aggregate the 
production of numerous small-scale producers--men and women with just a 
few cows each. These aggregators get the milk on the main roads for 
delivery to urban processors and ultimately to consumers. The impact is 
enormous, ranging from the increase in incomes to those small-scale 
producers, to the jobs created by the transportation and processing 
industry, through to the improved nutrition of millions of poor 
families who benefit from the addition of dairy in their diets.
    With the support of Congress, we are poised to bring American 
technical leadership to the complex task of promoting food security 
around the globe. By establishing new relationships with existing 
partners, such as the World Bank Global Agriculture and Food Security 
Program, as well as finding new local partners, we will fulfill our 
commitments to embrace a new, goal-oriented, evidence-based approach to 
achieving food security. We will support country-led plans and 
priorities in countries committed to policies that are conducive to 
rapid development progress.
    We are reshaping the agency to tackle food security more 
effectively by capitalizing on America's comparative advantages. There 
are aspects of American approaches to development that I would like to 
expand upon as these will be crucial to our long-term success. First, 
we are advancing a strategic and robust research agenda that promotes 
innovation in science and technology. Second, we are supporting 
entrepreneurial, market-based approaches to agricultural growth; and 
third, we are making targeted investments to meet the unique needs of 
women who make up the majority of the farming labor in our countries of 
focus.
    The United States is an admired innovator and early adapter in the 
area of agricultural technology. Thus, among global aid agencies, USAID 
is uniquely qualified to provide agricultural development assistance. 
From the spread of conservation practices in Zambia and South Asia to 
adapting biotechnology for small-scale farmers, the United States can 
leverage the expertise of U.S. universities and industry in partnership 
with established and emerging agriculture leaders in developing 
countries.
    Earlier this month, over 900 agricultural researchers from around 
the world gathered in Montpellier, France to chart a new way forward 
that would strengthen partnerships between global and developing 
country research systems and hold those systems more accountable for 
impact. Dr. Gebisa Ejeta, the recent World Food Prize Winner and 
special advisor to USAID on agricultural research, spoke on my behalf 
about the renewed U.S. commitment to research and strengthening the 
capacity of developing countries to deliver new technologies and more 
sustainable management practices to their farmers. The message from 
Montpellier was clear--the world needs to produce more food, but often 
with less land and water, and greater climatic uncertainty--the only 
feasible option is to use science and information to sustainably 
increase agricultural productivity. This ``sustainable 
intensification'' requires purpose-driven research and solid 
partnerships, both key areas for U.S. leadership.
    We will provide over 8 percent of our budget in FY 2011 for global 
research--which represents a major increase. But with this expansion 
come challenges. The CGIAR System (Consultative Group on International 
Agricultural Research) is defining new research programs with specific 
outcomes targeting hunger and poverty--transformative technologies such 
as drought tolerant maize, wheat that resists heat, drought, and stem 
rust, and rice that needs less water--that will strengthen food 
security for millions of smallholder families across Africa, Asia, and 
Latin America. Our university partners are similarly being challenged 
to design research programs that generate outcomes and build capacity 
that target clear and compelling priorities.
    These programs will create multiplier effects by training 
scientists and strengthening the faculty and curricula of agricultural 
universities that will produce the next generation of agribusiness 
leaders, policymakers, and innovators. And we are challenged to 
strengthen both public and private extension systems to deliver the 
benefits of research to small-scale producers.
    These are the type of investments that drove agricultural growth 
during the 1970s and 1980s. Dr. Ejeta himself embodies the impact of 
those investments. His education--from high school in Ethiopia to 
graduate research at Purdue University--was funded, in part, by USAID. 
USAID's investment in Dr. Ejeta paid off a thousandfold when he 
invented improved sorghum varieties that benefited the lives of 
countless Africans. These partnerships are also a key component of the 
Global Food Security legislation that Senators Lugar and Casey are 
sponsoring and we welcome these important investments.
    I also feel very passionately about U.S. leadership in support of 
market-based solutions to agricultural growth. Increases in both public 
and private sector investments in developing countries are essential to 
accelerating economic growth and poverty reduction.
    In Feed the Future, we place significant emphasis on linking small 
farmers to markets--from connecting them to growing urban markets to 
promoting regional trade as a means to increase the availability of 
food and increase incomes. Through value chain approaches, we not only 
help strengthen and professionalize producers, but we help support 
growth in transport, processing, and marketing industries that will 
broaden growth of the whole sector. We can help small-scale producers 
segue from subsistence agriculture to growing their own farming 
businesses.
    For example, in West Africa, USAID projects already underway like 
the Sustainable Tree Crop program are transforming the lives of small-
scale farmers. Private partners, including Mars, Hershey, and Kraft are 
helping secure a vital supply chain for cocoa while improving the 
livelihoods of more than 1.5 million West African farmers in the 
industry. The program includes a farmer field school that is helping 
producers in a farmer-to-farmer approach with key lessons, disease 
control and knowledge extension. This is an ideal partnership between 
West African farmers and U.S. companies.
    We have several such opportunities to unlock the private sector 
investments in agriculture. Our programs can and will go a long way, 
but the real heavy lifting will come from our developing country 
partners as they must commit to market solutions for agricultural 
development. Rwanda set a very good precedent for other countries on 
this front. At the Rwanda portfolio review of the Country Investment 
Plan for Agriculture in February, a multitude of stakeholders including 
donors, civil society, and private sector representatives came around 
the table to agree upon investment priorities and then coordinate and 
align investment actions. We continue to encourage such 
multistakeholder reviews which emphasize the engagement with the 
private sector so that our collective public investments can unleash 
sustained, commercial opportunities over the long term. We have private 
sector advisors from the United States reviewing each country 
investment plan and we are working with our developing country partners 
to ensure there is a robust representation from local and regional 
commercial players at each of the country-level reviews.
    A third aspect of our approach relates to gender. The American 
ideal of gender equality permeates through our approaches to economic 
development as we intentionally target our work to meet the unique 
needs of women. Seventy percent of African farmers are female. In order 
to make the most of our food security funds, we must focus on these 
women who are the leaders of agriculture in Africa. Last year, I met 
one such woman--a successful Uganda farmer named Justine Manyomga. She 
farms about 2 acres of land--a plot that is considered large in her 
community. It took us several hours to reach her on a horribly slow 
dirt road, and Justine does not own a vehicle. She doesn't benefit from 
extension services, have access to credit, or the ability to ascertain 
market information in an efficient manner. Like most African farmers, 
she uses no mineral fertilizer.
    And should production fall, there are no safety nets to help her or 
her family. I met with Justine's neighbors who described how recent 
viral diseases in cassava and bacterial wilt disease in banana had 
devastated their food production, forcing them to pull children out of 
school, and making them go hungry.
    Justine does well by African small-farm standards, and she is 
hopeful that she will continue to be able to send her kids to school. 
She dreams that they will receive university educations so they can 
lead productive lives. She is participating in a program through a 
local NGO, to improve yields of her sweet potato crop. But, new crop 
varieties alone--especially without access to better markets--will not 
lead to the type of agricultural transformation required to reduce 
poverty and hunger at scale.
    When you take a step back and look at the entire chain--from caring 
for the soil, to planting the seeds, to raising, harvesting, and 
selling the crops--you can see all the threats to this woman's 
livelihood, all the vulnerable links along the chain where the whole 
enterprise could collapse.
    So there is an enormous gap in access to markets as well as in the 
adoption of new technology, inequalities in laws, rules, and norms, 
especially for women producers. These inequities limit women's access 
to land and other key productive resources. Moreover, the percentage of 
agricultural leaders who are women, including researchers and extension 
agents, is usually less than 15 percent. We are looking for additional 
ways to foster the roles of women in science, and also in extension, 
where new approaches, often in partnership with the private sector are 
also underway.
    Women are especially important to advancing the nutrition agenda. 
When the well-being of women is improved, there is consistent and 
compelling evidence that agricultural productivity advances, poverty is 
reduced, and child nutrition improves. Therefore, through the Global 
Health Initiative FY 2011 budget request, we are committing $200 
million toward achieving significant reductions in undernutrition that 
has crippling effects on a person's ability to learn and produce.
    The United States has technical leadership in these areas and, with 
your support, a strong resource base to apply against solutions we know 
are effective. We are putting in place a stellar team to carrying out 
our food security strategy. Ambassador William Garvelink will oversee 
the effort at USAID as Deputy Food Security Coordinator for 
Development, to lead the programming of USAID resources and coordinate 
with other U.S. Government agencies to be consistent with our overall 
strategy. Ambassador Patricia Haslach will lead our diplomatic efforts 
as Deputy Coordinator for Diplomacy. Ambassador Haslach will lead the 
effort to imbed food security as a political priority in our embassies. 
We have hired more than a dozen new Foreign Service officers with 
expertise in agriculture over the last year with an additional 30 in 
the process of coming on board.
    All of our focus country missions have already submitted plans for 
FY 2010 that are now being analyzed and will be the basis for our 
improved, scaled-up investments in agriculture. The plans outline a 
multiagency effort to build the capacity of key actors in government, 
the private sector, and civil society--those who will lead and 
implement country-owned plans in food security. Interagency technical 
collaboration and review is allowing alignment of multiple U.S. 
Government agencies around the development efforts of USAID. These 
plans will provide the foundation for development of detailed and 
targeted multiyear strategies in the next few months that we will share 
publicly to engage partners in our effort and to communicate the 
results for which we will be accountable.
    Action is also happening at the country level. The coordinated 
effort of multiple stakeholders behind a country-led planning process 
is a central principle of the global effort. In July 2009, only one 
country in Africa, Rwanda, had a comprehensive national agriculture 
plan. Today there are 17; and by the end of June there will be 25. 
Several of these will be translated into technically reviewed and 
costed investment plans around which donors can organize and coordinate 
our funding. The progress is not only in Africa but also in Latin 
America and Asia, effectively reversing the trend of disinvestment from 
the 1980s until 2008.
    As early as next month, I will join a meeting hosted by the Prime 
Minister of Bangladesh with other major development agencies, 
multilateral organizations, local and international nongovernmental 
organizations and the private sector to chart the next steps toward a 
coordinated investment plan for food security that spans agricultural 
development, nutrition, and safety nets for the poorest. This will be a 
major step forward for Bangladesh as they address food security with 
their own commitments.
    The global momentum is great. The advances in technology and 
research have been powerful, and the sharing of information in real-
time is opening new avenues and efficiencies that can make our 
investments more strategic than ever before. I believe we are at a 
unique moment in history to make a tremendous change in agricultural 
productivity, hunger and undernutrition.
    This is not to say it will be easy. Our partners in the developing 
world must do their part to develop robust, prioritized investment 
plans that have the buy-in from a broad base of constituents. These 
plans must represent hard choices and a commitment to doing work 
differently that even we in this country find difficult to do. Our 
partners must invest more in agriculture despite the difficult economic 
climate facing us all. They must make policy reforms to change the 
governance of seeds and fertilizer and to improve the investment 
climate in agribusiness. We need them to join us in the effort to 
integrate and grow the roles of women, even while other groups may have 
more pervasive political influence. These are all tough decisions that 
require real leadership. I am confident that our resources and 
flexibility will serve as both carrot and stick in terms of urging them 
onward.
    Not all the burden lies with developing countries. We have many 
operational and strategic challenges as we take on an issue of this 
size and magnitude. I fundamentally believe that the programs of USAID 
will only be effective if aligned with other donors and, importantly, 
with the broader work of the U.S. Government in each of our countries. 
Decisionmaking structures must be built that work across agencies. We 
must develop streamlined processes for reporting on our collective 
progress. We must recreate an atmosphere for sharing information and 
solving problems together. This cooperation and coordination is 
difficult, but absolutely necessary. I am committed to working more 
effectively across agencies and I am hopeful that with your support we 
can break down silos so that we can have a united approach to tackling 
food insecurity and undernutrition.
    In addition to the challenges of implementing a whole-of-government 
approach, we also have many strategic choices to make about how best to 
structure our funding to maximize impact. We will need your support and 
guidance as we do so. First, we need your commitment to having an 
outcomes- and learning-driven foreign aid agenda. It is imperative for 
us to allocate future funding based on the progress we are seeing in 
countries. Such an outcomes-oriented approach requires us to be nimble 
in our funding--advancing funds where progress is great and being bold 
in reprogramming funding where countries commitment to change is not 
there. To be successful in this approach, I recognize the importance of 
having metrics in place with which we can regularly gauge our success. 
As you know, I have made monitoring and evaluation an important part of 
rebuilding USAID's strategic planning and learning. Food security will 
be on the forefront of those efforts.
    In addition to supporting an outcomes-driven approach to aid, 
Congress can be instrumental in supporting the human resource 
requirements to take on an initiative of this size. While the program 
funds have grown our operating expenses have not been proportional. 
Congress' continued support for the Development Leadership Initiative 
is critical to rebuilding USAID's in-house expertise and I thank you 
for all you have done to strengthen and invest in that program.
    Today we celebrate Earth Day, and we know that agriculture and the 
environment are interrelated. We face enormous challenges in addressing 
climate change. But in the Sahel of Africa, for example, we can see 
success that marries productivity growth with improved natural resource 
management. Through wide-scale community-based agroforesty programs, 
large parts of Burkina Faso and Niger are greener today than they were 
30 years ago. Low technology solutions like regenerating on-farm trees 
from root systems are creating a new agricultural landscape.
    With over 1 billion people suffering from hunger, food security 
must be one of our top development priorities. It is the most basic of 
human needs and it is the basis for human development. Children who are 
undernourished will not reach their full educational potential, 
economies cannot grow if workers lack sufficient food to fuel their 
labor, unsustainable agriculture driven by poverty undermines the 
environment, and widespread hunger leads to political instability as we 
saw in the food riots of 2008. I look forward to working with members 
of this committee, and others in Congress, as well as other U.S. 
Government agencies, our partners in nongovernmental organizations, 
universities, industry, foundations, multilateral organizations, other 
donors, and developing countries themselves, to seize this opportunity 
and redouble progress in cutting poverty and hunger.

    Senator Lugar [presiding]. Thank you very much, both of 
you.
    Now, let me commence with questions, and we'll have a round 
with 7 minutes each, and another round, as required.
    I ask unanimous consent that I place in the record a piece 
from this morning's Wall Street Journal by Secretary Geithner 
and Bill Gates, entitled ``A New Initiative to Feed the 
World.'' And I quote from their report that, ``Whereas nearly 
18 percent of official development assistance worldwide went to 
agriculture in just 1979, this is now down to 5 percent in 
2008.'' And I would add that the aid to Africa during this 
period of time has been insignificant.
    [The article to which Senator Lugar referred can be found 
on page 56.]
    Now, one of the results of all of this is that the amount 
of crops per acre an average African farmer produces is 
currently half the amount of an Indian farmer, one-fourth that 
of a Chinese farmer, and only one-fifth that of an American 
farmer. So, as we're discussing the need for increased 
production agriculture, this is of the essence. Doubling the 
world's food production by 2050, in the face of these current 
percentages, is arithmetically impossible without the 
scientific expertise that you've mentioned.
    The role of genetically modified technology in agricultural 
development is a matter of contention for some. Europe's 
rejection of GM has pressured African governments to follow 
suit, for fear they will lose existing or future export 
markets. Others argue that the safety of GM has not been proved 
despite nearly two decades of use. This opposition contributes 
to hunger in Africa, in the short run, and virtually ensures 
that much of the continent will lack the tools to adapt to 
changing climate conditions, in the long run. We just may not 
be able to double food production by 2050, and do so using the 
existing agricultural footprint, if we do not invest in 
technological advancements. Accordingly, the Lugar-Casey bill 
includes a provision supporting research on the applicability 
of biotechnology in varying ecological conditions.
    My questions are designed to try to frame this issue as 
precisely as we can. Now, I ask each of you, to what extent 
does the United States support research on a full range of 
technologies through the Collaborative Research Support 
Program, contributions to the Consultative Group for 
International Agricultural Research, or other programs, and in 
consulting with countries and regional organizations such as 
the Comprehensive Africa Agricultural Development Program, on 
their agricultural strategies? What is the state of existing 
research capacities in countries suffering from chronic hunger? 
To what extent have they incorporated building research 
capacity into their own development strategies? And do these 
strategies encompass biotechnology?
    Dr. Shah. Thank you, Senator. I'd start just by noting, as 
you point out, that the USAID and the Federal Government has 
had a longstanding commitment to the Consultative Group for 
International Agricultural Research. We target around $30 
million of investment directly to the CG system, plus probably 
another $20 or $25 million that comes from our missions to 
support CG research activities, and really linking those 
activities to local agricultural systems, which is very 
important.
    We've also, since 1975, actively invested in the Land-Grant 
University System, as you know, sir, through Title 12. We do 
about $30 million through these Collaborative Research 
Programs, known as CRSPs.
    The two things, with respect to this research system that 
we're looking to really evolve through this strategy, are as 
follows:
    First, we've really identified a set of core crops and core 
production constraints that need to become the priorities, 
going forward. These include rice, maize, cassava, et cetera, 
and they include the types of constraints that, frankly, have, 
shockingly, been neglected over the last decade, abiotic stress 
related to water--you know, water scarcity, and heat tolerance, 
in particular. So, we've identified those traits and those 
crops, and we're looking to reorient the investments we make at 
the CG and in the CRSP program to, in a more focused way, 
support that.
    As we do that, we're really working with partners around 
the world, including U.K., in particular, that are making big, 
new commitments to the CG system, so that we can, in an 
organized way, really return that system to its roots, which 
were originally focused on productivity, crop breeding, making 
advanced genetics available to countries around the world, in a 
focused and structured and efficient manner. And I'm confident 
we can do that, but it will take working with a range of 
partners.
    The second thing I would add is that we are looking to 
partner with USDA and the unique research capabilities they 
bring. In the intramural research space, USDA has programs in 
livestock genetics and livestock disease that will be important 
partners for us. And in the extramural space, we're looking to 
work on those dual-use types of technological advances, where 
their--where they can advance goals and we can help make those 
breakthroughs in drought tolerance, for example, accessible to 
lower-income countries.
    So, we believe research is an important component.
    And then, the final thing I'd say--I'm sorry--is that, on 
the transgenic technologies, we've both specifically supported 
transgenic technologies, like eggplant in India and a range of 
other technologies in Africa, including drought-tolerant maize 
in Uganda, and we're supporting efforts for those countries to 
develop the types of regulatory systems that they need to have 
in order to make those technologies accessible to their public. 
And then let farmers decide what they want, and what they don't 
want, as opposed to having those choices dictated from abroad.
    Thank you.
    Mr. Lew. Senator----
    Senator Lugar. Do you have a further comment, sir?
    Mr. Lew [continuing]. That was an answer that leaves little 
to be added to it. But, let me just add one--just highlight the 
last point that Dr. Shah was making.
    The regulatory environment that--is very important. I mean, 
we've seen, in a lot of areas, that if you don't fill the space 
with science and knowledge and facts, that fear can fill the 
space just as easily. We know, from phytosanitary standards, 
that we're much better with a world where everyone understands, 
in a uniform way, and where there are harmonized regulations in 
a region. This is a newer area, but it's just as important. 
And, in terms of dealing with the problems of the future, we 
can't afford to let it drift for decades. It has to be 
addressed as the technologies are being developed.
    Senator Lugar. Now, let me ask the following, as a second 
broad question to both of you. The committee's study on global 
hunger found that as funding and investments in global 
agriculture decreased over the last two or more decades, so did 
investment in agricultural, education, and national research 
systems. The Lugar-Casey bill seeks to enhance current USAID 
programs relating to building capacity at institutions of 
higher education, extension services, and research facilities. 
It proposes to do this through partnerships between United 
States universities and foreign universities. Now, what is the 
extent to which USAID manages programs to build capacity at 
foreign universities and national research services? And how do 
such efforts fit in the Feeding the Future Initiative?
    While it's been argued elsewhere that USAID has lost much 
of its specialized expertise, I'm interested in understanding 
the history of USAID's involvement in higher education programs 
and extension programs. Can you provide us with background on 
this question?
    And second, support for country-led processes has become 
popular in development policy circles. The thinking is that we 
must get away from paternalistic relationships and shift 
responsibility to countries, enabling them to create their own 
paths. However, I am concerned the rhetoric surrounding 
country-led efforts may lead us to support, even tacitly, plans 
that may not be in U.S. interests, or approaches we do not 
believe work. An approach that is dominated by a country-led 
framework can take attention away from a partnering 
relationship, where donors and recipients recognize the mutual 
benefit of each other's development.
    This leads me to the following question: To what extent can 
we ensure that country-led plans have encompassed the 
participation of civil society, rather than being elite-driven? 
Furthermore, to what extent is the United States or other 
international donors working with food-insecure countries to 
guide and inform their strategies?
    Dr. Shah. Thank you, Senator. I'll address all three 
points.
    First, on partnerships, USAID currently has more than 50 
university partnerships that are specific to agriculture, 
including with the broad range of the Land Grant Universities 
that, in fact, work in very close partnership with agricultural 
research and extension organizations in Africa, Asia, and Latin 
America.
    I had the chance to personally visit the University of 
Nebraska sorghum program, for example, and you can see the 
value of the rich, technical exchange of both germplasm and of 
individuals, so that people can learn modern breeding 
techniques and then take them back to those research systems.
    As we move this initiative forward, I think, we're looking 
to expand those efforts dramatically, but in a more focused way 
and with university partners in other parts of the world.
    You asked about our history. In the 1970s and 1980s, we 
were far more effective at building really strong agricultural 
research-based universities in Faisalabad, in Pakistan, and 
throughout India, for example. And those really became 
transformative institutions for the agricultural systems in 
those countries. Recently, the investment in that area has 
dropped off dramatically, so we'll rebuild in that space.
    On expertise, as you noted, there are more than 130 
agricultural experts at USAID. And we're looking to hire 
significantly in this area, and also looking to partner with 
other Federal agencies, notably USDA, that might have specific 
expertise in phytosanitary standards and other trade issues, 
including USTR. So, we're looking to expand that cohort; but 
there are 130, and we're looking to organize that in a way 
that's most effective in implementing this initiative.
    And, third, on country-led plans, we've helped support the 
Comprehensive African Agricultural Development plan process 
through NEPAD. And through that effort, they mobilize technical 
resources from all three of the Rome-based food and hunger 
agencies, as well as the International Food Policy Research 
Initiative, and really provide quite a lot of technical support 
to countries that are developing these plans.
    You are absolutely right, sir, to point out that often, in 
the past, country plans have not prioritized women or private 
sector efforts or research. And we're working, in a dialogue 
with countries, to help countries be most effective at 
developing the kind of long-term plans that can demonstrate 
that investment in those three often critically missing areas 
is often the key to long-term success.
    But, we do feel it's important to let this process run its 
course, and to be responsive to countries, as opposed to simply 
dictating priorities. And so, we're doing that in a balanced 
way with our colleagues on the ground.
    Mr. Lew. If I could just add, on the question of country-
led programs, because I think this is an issue that's broader 
than just the food security issue. It's really part of an 
approach to development in healthcare and other areas, as well. 
And, I think that there's some tension in the notion of 
country-led and the directed focus that we're talking about in 
these programs. It won't be a good fit for every country. We 
are--what we think is important to do in the world won't have 
an application everywhere. And we need to find the places where 
there is a good fit, because they are U.S. programs that have--
are driven by U.S. interests.
    I think there are a lot of countries where what we're 
talking about will be a perfect fit and there will be those 
kinds of country-led plans. But, we have to engage in 
partnership. And the notion that we let go and say, you know, 
``You come up with a program, whether it's in food, security, 
or health, and, you know, we'll just write the checks'', that's 
not the notion of what ``country-led'' means. It's a 
partnership, it's engagement; it's respectful engagement. 
That's different from saying, ``You must do this.'' I mean, we 
respect that they may not want to participate in the program. 
And I think that that's the way you engage in a respectful way.
    Senator Lugar. I thank you both.
    Senator Cardin.
    Senator Cardin. Thank you, Senator Lugar. I appreciate 
that.
    And, let me thank both of you for your service.
    This is a subject we've been talking about for a long time: 
food security. And your answers are, I think, the type of 
approach that all of us agree that we need to participate in. 
So, it's encouraging to hear this.
    But, I sort of want to try to connect the dots a little 
bit, and that is, it's hard to imagine how you can deal with 
hunger if you don't deal with poverty. And it's hard to see how 
you deal with poverty if you don't deal with the problems of 
corruption in the developing worlds, and a lack of institutions 
to protect the development of any semblance of progressive 
improvement on wealth.
    And a few weeks ago, we had President Clinton before us, 
and Mr. Gates, and they talked about their foundations, and how 
they use their foundations, but they, because they're private, 
can be a little bit more directive on how they deal with the 
issues of transparency and corruption.
    We have more diplomatic issues that we have to deal with. 
And I don't mean to say that they're equivalent.
    But, it seems to me that if we're going to be successful in 
dealing with food security, internationally, globally, that 
we're going to have to deal with accountability and 
expectations in the institutions that we deal with, in order to 
build the permanent structures for security in that country.
    And I just am interested as to how you are trying to deal 
with the interrelationship between our programs to help with 
hunger, and dealing with developing the types of credible, 
transparent institutions in the country, that can protect the 
people and allow wealth accumulation.
    Mr. Lew. Senator Cardin, that is central, not just to food 
security, but to our development programs and our foreign 
assistance programs, generally. And it's an extremely important 
issue for us to both be focused on and devote our attention to 
in the work that we do.
    I think, if you look at the structure of the Food Security 
Initiative, it's really designed to make the determination that 
we have a partner that we can work with, and to ask threshold 
questions about what their governance situation is, what kinds 
of programs will be implemented. The issue of women often gets 
to, Is the system one that allows for land ownership, that 
allows for the rule of law to work?
    Senator Cardin. And I want you to continue to answer, but I 
was going to follow up on the gender issue. You both raised 
that in your opening statements, we've talked about that. I'm 
very happy to see that. Secretary Clinton has been an outspoken 
champion for gender issues. It seems to me that's one area we 
can be pretty specific.
    Mr. Lew. Yes.
    Senator Cardin. So, now, suppose the country does not 
provide for that. Do we, then, back away? What do we do?
    Mr. Lew. These become very difficult diplomatic issues. I 
think you have to focus, at the front end, on being very clear 
about what expectations are. You know, we have seen, in other 
programs--the MCC, for example--where, if you set clear 
expectations, you can come in behind and say, ``You haven't met 
the standard.'' I think it's very difficult, if you haven't 
been clear about what's expected, to be that--to stick to your 
principles and implement a program the way you said you would.
    We've made clear, in the Food Security Initiative, that 
becoming part of it doesn't mean that you're guaranteed to stay 
part of it. If you don't perform according to what the--what 
your commitments in the program were, you know, there's the 
risk that you won't stay in the program.
    We're going to have to stick to our principles and 
sometimes say to countries, that we have good relationships 
with, or need to have good relationships with, or have 
strategic interests in, that this isn't working. And that's 
always a challenge. It's----
    Senator Cardin. Will you be able to provide us specific 
accountability standards on gender issues in a country----
    Mr. Lew. Yes.
    Senator Cardin [continuing]. As----
    Mr. Lew. Yes.
    Senator Cardin [continuing]. That we're participating in, 
so that we have at least transparency between the executive and 
legislative branches as what the expectations of that program 
and that specific country is, to improve the plight of women, 
particularly in agriculture, which is so well documented how 
they've been discriminated against?
    Dr. Shah. Thank you, Senator. I--absolutely. And we will 
not only be able to provide them to you, but we will also be 
able to provide them to our implementing partners, to 
countries, and to all that are involved in this initiative.
    I think Secretary Lew's point is exactly the right point, 
that we have to be clear about the expectations, and develop 
those expectations with our partners.
    To give you an example--really, three quick examples--one 
is, we can set standards around what we expect, in terms of 
building an extension workforce that is responsive to the 
customers that workforce is trying to serve. We can set 
targets, we can have expanded efforts to recruit, retain, and 
train women extension workers.
    Second, we're already supporting programs, like the Award 
Program, that specifically identifies promising younger African 
agricultural scientists that are women, and gives them 
mentoring, training, and development opportunities, including 
opportunities to engage with United States-based scientists.
    Third, in every country we do this, we will have strict 
monitoring and evaluation, and we'll do things, like collect 
household income in a gender-disaggregated way, because we know 
income driven to women in particular, has much bigger effects 
on reducing child undernutrition and on improving family 
welfare outcomes.
    So, for reasons of effectiveness, there are very specific 
things we can make quite transparent, and we will.
    Mr. Lew. Could I add one additional point? And we talk, 
often, about development and diplomacy working together. It's 
critical, if we want to stick to our principles, that we have a 
single, united approach to a country, and that it's not just a 
message that's heard in an Agriculture Ministry, but it's heard 
by the Prime Minister, it's heard by the Finance Minister. We 
have to be able to communicate, at all levels of government, 
back and forth, consistently.
    I think we're trying very hard to do that as we put 
together the Food Security Initiative. Frankly, we're trying 
very hard to do it as we put together the Global Health 
Initiative. In many countries, we'll be talking about both of 
these programs together.
    So, there will be rising expectations, in terms of what it 
is that we expect our partners to--how we expect our partners 
to perform.
    Senator Cardin. I think it is very important that, up 
front, the expectations are well documented and known by our 
partners, that it is clear that our participation is not to be 
taken for granted, that if the standards are not met, that we 
are prepared to say it's not in the best interests of the 
United States, or the country in which we're operating, to 
continue that program. And we have to be prepared to leave if 
the standards are not being met. Because, quite frankly, you're 
not--we're not doing any benefit to the population if our 
participation does not change the underlining problems in that 
country.
    Thank you, Mr. Chairman.
    Senator Lugar. Well, thank you very much, Senator Cardin.
    It's a privilege to introduce and recognize Senator Casey, 
my partner in this legislation that we produced and that we're 
attempting to coordinate with the State Department.
    Senator Casey.
    Senator Casey. Senator Lugar, thank you very much. And I 
appreciate your leadership, for many years, on these issues 
that we're coming together on. I think, in a way, that it's 
unprecedented, when you think about what the Congress can do, 
what the administration can do, and what our international 
friends can do. And not to leave out the tremendous work done 
by the--by foundations and nonprofit organizations. So, we're 
grateful for that leadership.
    And I want to commend Senator Cardin on some of his 
questions, that I might follow up on.
    But, I do want to thank you, Secretary Lew----
    Mr. Lew. Thank you.
    Senator Casey [continuing]. And Director Shah, for being 
here today, for your work and your commitment. And, I think, by 
commending your work, we're, of course, commending the team 
that you work with and for, President Obama and Secretary 
Clinton and the whole team, so to speak. We're grateful for the 
commitment.
    And I think when we come together today and have a hearing 
like this, and we have a discussion about this critically 
important issue of food security, we all come into this room 
for different reasons, I guess, or come from different 
experiences and different levels of commitment. But, I think I 
can go to anyone in this room, and if you ask them why they're 
here, it would come down to a couple of basic reasons.
    We're here, I think, because we're summoned by our 
conscience, first of all. And we're concerned about security. 
Not just food security itself, but security itself, from harm 
that results when people are desperate and when countries have 
terrible situations, which lead to another kind of insecurity. 
And I think we're also concerned about the economic impact of 
this issue, here in this country and across the world.
    So, as we think about our conscience, we're reminded, by 
some of those really compelling and disturbing statistics, 
there are lots of ways to express it, but, by one estimation--
and people in this room know this number, but it's--bears 
repeating--every 5 seconds, a child in the world dies from 
malnutrition and food insecurity.
    I was also struck by some of the numbers that were cited as 
it relates to both the role that women play in the solution, 
but also the disproportionally negative impact that this crisis 
has for women across the world. Sixty percent of the world's 
chronically hungry are women and girls. Sixty percent. Twenty 
percent of which are children under 5.
    So, we have lots of data, we have lots of diagnosis of the 
problem, and I'm glad that, today, we're talking about a 
solution--or, strategy is, maybe, the better word.
    I wanted to talk about at least three areas, and maybe get 
to some more in a--maybe a brief second round, if we can. I 
know we have another panel.
    I want to talk, first of all--or, ask you, first of all, 
about the--kind of, the budget, but maybe, more importantly, 
the coordination question.
    The budget numbers are--and I know you don't want to spend 
all your time talking about your own budget, but it's--these 
numbers are pretty compelling, as well. Just in terms of--not 
only your capacity or the diminished capacity over time, but 
what that means for U.S. commitment around the world. One 
number that struck me was--1990, USAID employed 181 
agricultural specialists; 2009, 22. Go from 181 to 22, in 20 
years. It's not as if the problem has been cut back or 
diminished in that time--same timeframe; if anything, it got 
worse. We're at a billion people, more than a billion people, 
food insecure.
    But, second, and related to that, the numbers, as it 
relates to--because of that incapacity or failure for us to 
make a full commitment in our budget and our resources, 
worldwide--or our commitment to agricultural development 
worldwide has declined. The other number that struck me was, 
worldwide, the share of agriculture and development assistance 
has fallen from a high of 13 percent in 1985 to just 4 percent 
between 2002 and 2007.
    So, I don't want to just dwell on the numbers, but ask 
you--we know you need more resources. We're committed to that. 
And we're going to--we want to continue to work with you on 
that. But, maybe the tougher question to ask, and the tougher 
question to deal with, is--and, Secretary Lew, you understand 
this, because you've got management responsibilities, not just 
policy. And, Director Shah, obviously, has a really focused 
responsibility here. But, how do you cut through the red tape, 
the turf battles, the--all of the commitments that you've made 
and, I think, work you've already done on interagency 
coordination? It's one--I guess it's in that category of, it's 
easier to say than do. And I think, if there's a--in terms of 
where the public is on this--(a) the public may not have a full 
sense of the dimensions of the problem, and our scaling back, 
over at least the last 20 years, in addressing this problem. 
But, I think the public probably has taxpayers who--paying our 
salary--have probably a--there's probably a credibility gap. 
When we say, ``We're going to cut through the red tape, we're 
going to be more streamlined, we're going to be more efficient 
in the Federal Government,'' and they say, ``Yeah, I've heard 
that before.'' Can you walk through that again, in terms of how 
you're going to cut through that interagency or turf-battle 
problem?
    Mr. Lew. Senator Casey, this is a core issue, because we 
will only succeed if we're able to accomplish that. I mean, 
we've talked extensively already about the need to draw on 
expertise from multiple agencies. It's just as important when 
we go into a developing country. One of the characteristics of 
a developing country is that it's capacity constrained at the 
governmental levels. If we come with three or four loosely or 
uncoordinated programs, and other bilateral donors and 
multilateral institutions are there, also with loosely or 
uncoordinated programs, we're creating stresses on those 
capacity-constrained countries that it's unreasonable to expect 
them to be able to deal with. We owe it to them to be able to 
do the coordination and have the capacity, ourselves, to go to 
them with a coherent program, where the different pieces fit 
together.
    You know, it's interesting, I've worked from different 
vantage points on this question of jurisdiction and, you know, 
what we in Washington call ``turf.'' If we could just start by 
asking the question, ``What do we need to do? What are the 
requirements?'' and then, second, ask the question, ``Who's 
best equipped to do it, and how do they work together?'' we 
would be so much more effective.
    I think, on this Food Security Initiative, that's how we've 
approached it. That's how we've put the funding together. 
That's how we've put the people together. And it's a challenge, 
because--it's a challenge to congressional jurisdictional 
lines, it's a challenge to agency jurisdictional lines. And, I, 
frankly, think there's no substitute for leadership. We have to 
provide the leadership, at the agency level. We need your 
support in having the leadership, at the congressional level. 
And we have to go out into country with ambassadors and AID 
mission directors and leaders who understand it.
    As I travel to countries, the difference between where it 
works and where it doesn't work boils down to leadership. And 
we have to not just expect it of people, we have to train them 
for it, we have to model it for them.
    I just came back from Afghanistan last Friday. I wouldn't 
want to compare Afghanistan to all of the countries in the Food 
Security Initiative, but some of the issues are similar. We 
have probably eight agencies of government working together 
there. It is making a big difference that we're coordinating in 
an area like agriculture, and going with one program; that 
we're coordinating in rule of law, and coming with one program.
    This is one program. You know, we--if we don't get the 
funding, we'll be in a different place. It's a piece that's 
like a jigsaw puzzle; you can't take a piece out and have the 
whole picture. So, the multilateral funding is critical. I 
mean, we, at the State Department, don't normally advocate 
primarily for funding that the Department of Treasury typically 
requests. We put this together as a conceptual whole, where 
what we'll be doing on a bilateral basis dovetails with what we 
expect the international financial institutions to be doing on 
a multilateral basis.
    So, we have to continue to see it as a whole. We make the 
commitment to working, at the agency level, and providing that 
leadership. The two deputy coordinators are committed to it. 
You know, Administrator Shah and myself and the Secretary are 
committed to it. And, most importantly, the President is 
committed to it.
    So, I think you have our firmest commitment, from the 
executive branch, that we don't consider whole-of-government to 
be just a rhetorical phrase. It's a philosophy of how to get 
the job done.
    Dr. Shah. If I could just address a few points that you 
raised, sir.
    First, on budget, it is worth noting--and you did, of 
course--that our FY11 budget request on inflation-adjusted 
terms, is still building back toward where we were in 1982, 
when we had capacities for providing support in this sector 
that were far in excess of where we've been over recent 
decades. So, it is a process to get back to where we were, and 
we hope to get beyond that.
    Second, on expertise, we have been working, for about 18 
months, to build real capacity, at the agency, in agriculture 
and food. I think the 2008 World Development Report, the work 
of you--your work and Senator Lugar's work, has all sent a 
powerful signal, and the agencies have been responsive to that. 
So, today we have more than 130 agricultural experts. They're 
not all in the agriculture office. They're scattered around the 
world. But, we're reorganizing that in a way that allows us to 
be more effective and efficient.
    And, third, on coordination----
    Senator Casey. May I just ask you--when you started--or, I 
should say, when the new administration started, what was that 
number?
    Dr. Shah. Well, it--I'm--we've hired more than 40 ag 
officers----
    Senator Casey. OK.
    Dr. Shah [continuing]. In the last year, so, probably a 
little bit less than 90.
    On coordination, we are working really hard to get that 
right. So, every week, I lead a meeting that brings the 
interagency colleagues together. We have the investment in the 
World Bank Trust Fund. The Treasury will, for example, sit on 
the board of that trust fund. But we are working very closely 
with them to make sure that trust fund supports the countries 
we're prioritizing, that come out of this country-led process, 
and that we're using each other's tools in a way that's most 
aligned. In some places, the multilateral development banks can 
more easily fund road infrastructure, irrigation 
infrastructure; we can fund seed research, extension efforts. 
In other cases, the reverse may be true. So, I think there's an 
opportunity to use those tools in a synergistic way, and cover 
the full agricultural value chain, which has been such a 
missing part of effective ag development strategy over the last 
few decades. Similar examples exist in research and other 
areas. But, that's how we're trying to approach it.
    Senator Casey. Doctor, I know I'm over time, but I'll come 
back--try to come back to both of you in a couple of minutes.
    Thank you.
    Senator Lugar. Thank you very much, Senator Casey.
    And I just want to follow up on Senator Casey's point by 
mentioning the whole-of-government idea is certainly central in 
the initiative. You've explained your thoughts about this. But, 
physically, who will do the coordination? In other words, in 
light of the multiple agencies in a country working to address, 
will direction come from USAID, from Secretary Clinton, from 
you, Secretary Lew? How does the coordination happen?
    Mr. Lew. Well, in-country, the answer is easy. We have, you 
know, the Ambassador's chief of mission in-country, and we have 
made it clear that this is a priority for the Ambassadors to 
manage, and they have DCMs who often do the day-to-day 
management. There will be strong leaders for the--in each 
country, depending on the country. You know, there will be 
different people designated as leader. But, the team--you know, 
the two deputy coordinators will be driving it on a day-to-day 
basis. Dr. Shah described the, kind of, oversight mechanism.
    Each agency will ultimately be accountable for the funds 
that it has the appropriations for and that it's going to be 
spending and reporting on.
    But, it has to tie together in a plan. We're not looking to 
have three or four or five separate streams, where you come 
back at the end, and they didn't do the whole program. As Dr. 
Shah just said, each one is a component of a unified program, 
and it only works if we get each of the components.
    So, I think, in Washington, we're tightly coordinated, on a 
policy bases. The management ultimately has to be very strong, 
in country, for things to work. It needs to have the support of 
the Ambassador; and not just the support, but the active 
involvement.
    And, you know, this will be something of a learning 
experience. I mean, you know, we're doing a number of whole-of-
government efforts in a way that they haven't been effectively 
done before. We understand that. I think we're already seeing 
what works better than doesn't.
    And I hate to get back to something that sounds so simple, 
but it really does depend on leadership. We have to make sure 
that our leaders, in country, know what's expected of them.
    And I've been to many meetings where the question begins, 
``I want to do it the way my agency does it.'' If we say that's 
not an acceptable approach, it has to be, ``Are we implementing 
the plan?'' And our partners and other agencies have to do the 
same thing.
    And again, I come back to it, we're going to need to be 
partners on this, because sometimes what we hear is, ``Well, 
our committees want us to do this.'' If the message they get 
from us, and that they get from you, is that this whole-of-
government effort is for real, and that you're going to be 
judged on whether or not you achieved that--people manage 
differently.
    We have a lot of history that we have to overcome or move 
away from. So, I don't say any of this, suggesting that it's 
easy. And it requires an awful lot of time. And the reason we 
have two very senior Ambassadors coming in to run it is, it's 
not something that should be done by a mid-level officer. It 
requires, you know, that kind of both sophistication and 
experience, but, also, the respect that comes from that in the 
system. Both of--you know, USAID and State are systems where 
experienced Foreign Service officers have a standing to call 
people to account. And if they know they have the support of 
the Administrator, of myself, of the Secretary, I think we can 
do this.
    It's clear to us that it's the right thing to do. It's also 
clear that there are a lot of historical and institutional 
barriers that we have to not be deterred by.
    Senator Lugar. Well, we, on the committee, will look 
forward to working with you as this whole-of-government 
approach grows, matures, and is perfected. It's so important.
    Senator Menendez, do you have questions?
    Senator Menendez. Thank you both for your service.
    Administrator Shah, the USAID has been the lead agency for 
the United States in poverty reduction. At one time, it was a 
highly respected thought leader. Particularly on agriculture, 
it led the Green Revolution. However, it has also been steadily 
decimated over the last couple of decades and has lost a lot of 
its technical capacity. So much so that today USAID has, as I 
understand it, only 16 agricultural experts, much fewer than in 
the 1980s.
    Senator Kerry, Senator Lugar, Senator Corker, and I have 
been involved with legislation to try to build up capacity at 
USAID, which I hope that we can move soon. How do you plan to 
implement an effective food security strategy, or any other 
strategy, without a strong USAID?
    Dr. Shah. Thank you, Senator. And, Senator, with your 
support we hope to build a strong USAID to be able to 
effectively implement this program and all of the other 
responsibilities we carry.
    Just a moment on that. There are four major operational 
reforms that I'm pursuing this year, with the support of the 
Secretary of State and the White House and others.
    The first is to rebuild our policy and budget capabilities 
so that we can exercise thought leadership and organize our own 
thinking and speak with one voice, and do that in a coordinated 
way.
    The second is around procurement reform. It's been a major 
part of our shared thinking in this space, that we need to be 
more efficient at how we implement efforts, and that will 
require procurement reform.
    A third is in the area of human resources, where we're 
looking to expand certain technical expertise that, you point 
out, has been diminished over time, and that which is required 
of an agency that's called to take on significant tasks.
    And the fourth is in monitoring, evaluation, and 
transparency, where we have an expanded accountability, to this 
committee and to the American people, to be more transparent 
and to be more indicator-oriented.
    Senator Menendez. Let's talk, for a moment, about the third 
of your four items, which is how you intend to attract and 
retain high-quality talent.
    Dr. Shah. Well, thank you, sir. I hope, in August, to 
launch a set of human resource reforms that will cover 
recruiting and retention. But, in food security, in particular, 
we have been aggressively recruiting top talent. We now have 
more than 130 agricultural experts at the agency. We are 
reorganizing our capabilities so that they can function 
together in an integrated way, and actually test each other's 
ideas and pushback. We're trying to create the rich 
intellectual environment that will allow us to recruit others. 
I've--this is a field, in particular, where I have certain 
expertise in relationships, and have had some successes, I 
think, in bringing on board the types of people that will help 
us be effective, and will help us link better to the private 
sector, expand the kind of innovative partnerships we can do 
with banks and with large firms and with local private-sector 
organizations, and that can help us work better with our 
interagency colleagues and with institutions like the World 
Bank.
    So, I'm actually very optimistic, sir, in food security and 
in global health, that we can attract and retain a very, very 
high level of talent to do this.
    And I'll close by just noting--and although we'll have a 
broader recruitment strategy than just this, I've put a lot of 
personal effort into recruiting. I think human resource 
recruiting is probably one of my top tasks, in order to help 
support this agency be successful.
    And I enjoyed reading, just the other day, when Bill Gates 
was speaking to a university group, and students were asking 
where they should go to work to be part of this great mission 
of making the world a better place. He suggested USAID. And I 
know that's only one anecdote, sir, and we have a lot of 
structure to put around our recruiting efforts. But, we are 
working aggressively to rebuild our capabilities.
    Senator Menendez. Aside from your verbal response, do you 
have a plan of action in this regard?
    Dr. Shah. We do. We are refining it. It basically--there 
are two or three----
    Senator Menendez. Is it a written plan?
    Dr. Shah. It will be--yes, it will be written----
    Senator Menendez. And can you----
    Dr. Shah [continuing]. Within about a few weeks, if I 
could----
    Senator Menendez [continuing]. Share that with----
    Dr. Shah [continuing]. Send it to you..
    Senator Menendez [continuing]. The committee, please?
    Dr. Shah. Yes.
    Senator Menendez. Let me just shift to what's been going on 
with the Quadrennial Diplomacy and Diplomatic Review, a process 
that both of you are cochairing. Can you tell us where the 
process is and when Congress will have a chance to review the 
initial findings?
    Mr. Lew. Yes, Senator. We are very close to being in a 
position to come up and brief Congress in detail on where we 
are. We've been trying to coordinate with a number of executive 
branch policy processes that have been going on. There's the 
Presidential study going on, on development, specifically. 
There's a national security strategy being developed. Our 
Quadrennial Diplomacy and Diplomatic Review is part of that 
overall effort. So, there's been a back-and-forth, and a 
healthy back-and-forth. I think the product we're going to come 
forward with is better for it.
    I can't say if it will be next week or the week after, but 
we're talking about a very small period of time----
    Senator Menendez. You precipitated my next question because 
I was trying to quantify ``we're very close''; I've heard 
``very close'' a couple of times.
    Mr. Lew. Yes.
    Senator Menendez. So, it's like the parent in the car, and 
the kid says----
    Mr. Lew. ``Are we there yet?''
    Senator Menendez [continuing]. ``Are we there?'' And, ``Oh, 
yeah, we're just about there.''
    Mr. Lew. Yes.
    Senator Menendez. This kid is getting impatient.
    Mr. Lew. I hear that. And I will take that message back.
    We are impatient to come up here and do the briefing. We 
very much want the input. We want it early in the process, 
because, you know, we now have the next stage ahead of us.
    What we've done up til now is identifying target areas of 
opportunity, the kinds of issues that we should drill more 
deeply into, different kinds of considerations that we should 
make, in terms of choosing--we can't take on every challenge 
that's ahead of us. But, the core issue that we're dealing with 
is, Do we have the capabilities, at the State Department and 
USAID, to address the challenges that we face over the next 
number of years? I think we've made a lot of progress defining 
what the tradeoffs are. We'll have to make more progress 
between now and when we have a final review. And having your 
input during that process will be very helpful.
    So, we look forward to coming up and briefing.
    Senator Menendez. Well, we hope that that offer will be 
substantive----
    Mr. Lew. Oh, absolutely.
    Senator Menendez [continuing]. Because we are, very much 
looking to be engaged. I've held my fire, as the subcommittee 
chair on foreign assistance but, I have to be honest with you, 
we want to be in sync, but it's not endless.
    Mr. Lew. We appreciate that. And we appreciate the patience 
that you and your colleagues have shown. Obviously, in the 
first year of an administration, we had a lot of things we were 
taking on at the same time. This is a very important priority. 
We've put a lot of people into it. We've got about 500 people 
at the State Department and USAID engaged--just the process of 
engaging across our two organizations and coming up with an 
approach that we can come forward with, internally in the 
administration and, very shortly, to the Hill, is huge 
progress. So, we feel we've gotten a lot done, as we've worked 
through it.
    I wish we were, you know, at the point where I could say, 
``We're up here tomorrow.'' That would be easier, and I know it 
would be more satisfying. But, I do think we're talking about 
weeks before we're able to engage in the way you'd like.
    Senator Menendez. Final question, if I may, Mr. Chairman.
    Mr. Administrator, how many holds do you have on programs?
    Dr. Shah. I'm not aware of the total number, sir, but I can 
find out.
    Senator Menendez. Could you give me the total number, and 
for which programs there are holds on?
    Dr. Shah. Yes.
    Senator Menendez. Thank you.
    Senator Lugar. Thank you very much, Senator Menendez.
    Senator Casey.
    Senator Casey. Thank you very much.
    Dr. Shah, I wanted to get back to a question for you. And I 
know we've got another panel and a vote and a lot happening, so 
we'll--I'll try to be brief.
    The question I wanted to focus on was the question of 
women; in particular, in terms of how that concern and focus is 
made part of the strategy.
    I was noting, in your testimony, Dr. Shah, you said--and 
I'm quoting from page 5 (page 17 of this print)--``When the 
well-being of women is improved, there is consistent and 
compelling evidence that agricultural productivity advances, 
poverty is reduced, and child nutrition improves.'' And I know 
you cited a person--Justine, in Uganda--and how her story 
exemplifies what one person can do when they have the capacity 
to farm and to produce.
    But, I just want to have you talk about that, because part 
of the challenge here for us--I think, both the administration 
and the Congress--is not--will be not just to get the policy 
right and the funding and cutting through the agency boundaries 
and all of that--the coordination part of it--we've got to be 
able to convince the American people of the necessity for us to 
go forward with this kind of a strategy. And I think, when you 
look at some of the public opinion surveys, and you ask 
someone, ``How do you reduce the deficit?'' or ``How do we make 
government--the Federal Government more efficient?'' they'll 
often say, ``Cut foreign aid.'' And they think it's a big part 
of our budget. And when they hear a lot of what we're talking 
about today, they conflate that with things that they would--
they sometimes think we would like to do, or they'd like us to 
do, but they can't--we can't do it in a recession. When 
someone's out of work in this country, they don't want us to be 
focused on other priorities.
    And I think we have to connect for them how important this 
is to our own security, to our own economy, in addition to the 
moral gravity of these issues.
    So, part of the way to do that is to be able to show them--
show the American people that individual--individuals around 
the world, and most of them women, are both victims of, as well 
as--can be, increasingly, major participants in implementing a 
better strategy. So, I wanted you to have a--just talk about 
that for a few moments.
    Dr. Shah. Sure. Thank you, sir. I think the main point I 
would make is that we bring a really data-oriented approach to 
decisionmaking, with respect to a focus on women. And the two 
most important data points, in my mind, are the ones you've 
referenced. First, that we know a dollar of additional income 
going to a woman is far more likely to be reinvested in the 
well-being of that family, and, in particular, of children. The 
correlations between child school attendance or child 
nutritional attainment and women's incomes is far stronger than 
it is with men's incomes. That's just reality, and there's 
quite a lot of data to substantiate that. So, for that reason, 
what--the indicator we care most about is--are women's incomes.
    The second critical data point is, we know that women are 
the decisionmakers and producers of food on--in the places 
where we're working--primarily dry land, small-holder 
agriculture that's highly vulnerable to climate, weather, and a 
range of other market conditions. So, in that context, we want 
to choose--we want to invest in the types of crop varieties 
that women are going to be more inclined to value and use.
    Nutritionally enhanced crop varieties, for instance, are 
more likely to be adopted by women, because they're thinking 
more about the nutrition of their family. There's a great 
example in beta carotene-enriched sweet potato in Uganda, which 
is the case I referenced, where, you know, women were 
responsive to a message that said, ``This is a product that 
will improve, you know, vitamin A in children, and reduce child 
malnutrition in that way.'' And you saw big improvements in 
adoption when you targeted women.
    The other example I'd cite is, there have been studies in 
Kenya on fertilizer that demonstrate that, when women are 
brought into the decisionmaking and when systems target women, 
particularly post-harvest, they're much more likely to purchase 
and store and manage access to fertilizer, on a continent where 
fertilizer use is, you know, virtually zero for staple crops 
and small-holder production. That's an important insight.
    So, these types of insights are simply the data points that 
drive the way we're trying to make decisions here. And, 
frankly, the question came up earlier about, Do the countries 
themselves recognize this? And the answer is, absolutely. You 
know, Rwanda is a great example, where a female Agriculture 
Minister, who's a former Rockefeller Ph.D. scientist, knows 
exactly all of this information, and how to put it together in 
a way that allows that program to be successful.
    So, you know, through our training programs, we hope to 
build more leaders like that. But, I'm very encouraged that we 
can be successful. And you have, on the next part of this 
panel, one of the world's leading experts, to talk about that 
in more detail.
    Senator Casey. Doctor, thank you.
    Mr. Lew. Senator----
    Senator Casey. Secretary Lew.
    Mr. Lew [continuing]. could I add that I think we all agree 
that food security is at the heart of economic instability in a 
lot of countries in the world. The food riots that we referred 
to earlier are just the most visible manifestation of that.
    It's also the case that, where you have that kind of 
instability, it is a--an environment that is ripe for political 
instability. And you look at the threats that we're dealing 
with, where there are crisis or where there are wars, whether 
it's Afghanistan, where there's a war, or a place like Somalia 
and Yemen, where political instability is generally seen as a 
real clear and present danger to the United States. It's too 
late, if you wait for the crumbling of a society, to go in and 
prevent that from happening.
    So, I would stand second to none in saying that this is the 
right thing to do, because it's the morally right thing to do. 
But, I also don't think it's at all inconsistent to say that 
it's a smart thing to do, if we want to look ahead and--look at 
a world where Americans will be more secure. It's not a good 
thing for Americans for there to be a lot of countries in the 
world that are failing or failed states, driven by the 
pressures of economic instability that's driven by food 
insecurity. So, I think it--we shouldn't make it a choice, that 
you either do it because it's the right thing to do or because 
we need to do----
    Senator Casey. Right.
    Dr. Shah [continuing]. it for our national security. I 
think it happens to be both.
    Senator Casey. And part of that challenge--and I'll end 
with this, because I know we have to move--part of that 
challenge is in--without trying to trivialize the issue--but, 
sometimes the way we debate even very big and important issues 
in this country is in 30 seconds. And what would you want in 
that 30 seconds--maybe 27 seconds? I think you'd probably want 
two things--maybe three, but you might only get time for two. 
One would be graphically demonstrating that instability--that 
that's a manifestation or a result of food instability. And 
second, Justine. Tell her story, as opposed to having a graph 
about the problem or a chart about how we're going to make it 
work, governmentally.
    So, it's a hard thing to do, but I think the more we can 
think about it in personal terms of real stories, as opposed to 
data--and then, second, to connect the dots to instability and, 
really, to a certain extent--I don't want to overdramatize 
this--but, to a certain extent, terrorism itself is one of the 
results.
    So, thank you very much.
    Senator Lugar. Well, thank you very much, Senator Casey.
    Without overemphasizing this point, I think we're, today, 
demonstrating a very strong bipartisan legislative initiative 
here today. Likewise, Congress has taken the approach of 
working with the administration in a unified fashion, which is 
tremendously important to our efforts.
    So, we thank both of you very, very much for your 
testimony.
    Let me suggest, at this point, that we will have a 10-
minute recess for our next witnesses----
    [Laughter.]
    Senator Lugar [continuing]. while Senator Casey and I vote 
and do our duty. A rollcall vote was called during the last 
question. We'll be back as rapidly as possible, and we hope 
that our witnesses will be with us at that point. We look 
forward to hearing them.
    Thank you.

    [Recess.]

    Senator Lugar. The committee is called into order once 
again.
    The Chair thanks the witnesses for your patience. 
Fortunately, that will be the last voting interruption. We will 
proceed with the hearing.
    I call upon the Honorable Catherine Bertini for her 
testimony.

STATEMENT OF HON. CATHERINE BERTINI, FORMER EXECUTIVE DIRECTOR 
  OF THE UNITED NATIONS WORLD FOOD PROGRAMME, COCHAIR, GLOBAL 
  AGRICULTURAL DEVELOPMENT INITIATIVE, THE CHICAGO COUNCIL ON 
                  GLOBAL AFFAIRS, CORTLAND, NY

    Ms. Bertini. Thank you, Mr. Chairman, Senator Lugar.
    Senator Lugar, it's an honor and a pleasure for us to be 
here today. Thank you for inviting us. And, most importantly, 
thank you for your leadership, because it's your leadership, 
for many, many years, that has now--it looks like it may even 
culminate, this year, in real legislation and also, obviously, 
with a really strong commitment on the part of the 
administration, in the new administration of President Obama. 
So, it's--you've been in the right place all the time, and now 
the world is coming to the catalyst I think----
    Senator Lugar. Thank you.
    Ms. Bertini [continuing]. You've created. And we're very 
pleased to be a part of it, especially having been cochairs of 
the Chicago Council on Global Affairs Agriculture Task Force.
    It's also been very, very encouraging to see what President 
Obama has directed, and how Secretary Clinton and Secretary 
Vilsack and Administrator Shah and others have been working to 
put those issues in place.
    Just a few comments today, if I might, with the rest of our 
joint testimony being presented to you for the record.
    As others have said in different ways, agriculture 
development is the single best way to try to decrease the large 
numbers of people who are still living in poverty. It's the 
best way, because most poor people still live in rural areas, 
because agriculture is still the biggest employer, if one can 
call it that, or, at least, time user of poor people in the 
developing world, and because investments in their 
opportunities and the opportunities of poor farmers throughout 
the world will magnify, many times over, in terms of decreasing 
poverty, decreasing hunger, and increasing the ability of 
people, families, communities, and countries to contribute 
economically to not only their own well-being, but their 
country's and the world's.
    You know, we're doing this--you're doing this, Senator 
Casey and others, because it's the right thing to do. But, 
there are strong arguments, even for those who just want to 
know what's in this for the United States of America. And when 
we look at this from the perspective of agriculture over the 
long term, the demand for food, as you have said, is going to 
increase dramatically over the next 40 years. It already has, 
for many of the reasons that you stated in your statement. The 
world has to produce more food, and the areas and peoples who 
are going to be best positioned to have very significant 
increases in agriculture are those farmers in developing 
countries.
    And if we think about this from a U.S. perspective over the 
long term, and from where we are going to sell our own 
agriculture production, the--some of the areas where we have 
sold the most--countries where we have sold the most in the 
past, to some of our biggest customers, are countries where the 
population is declining, certainly not increasing. And if, over 
the long term, we expect future space, future markets for our 
own agriculture production, we have to be in a position of 
knowing that there are people who can actually afford to 
purchase our agriculture commodities. And those people are 
going to be in the developing world. But, unless they are less 
poor, they are not in a position to be able to purchase our own 
commodities. So, if we help them, through helping their 
agriculture over the long term, it will also complement ours.
    Several recommendations, quickly. And these are in our 
document and, certainly, in the report, earlier, done by the 
Chicago Council. We think, first of all, that the U.S. 
Government needs to support agricultural development, from a 
political perspective, a financial perspective, for many years, 
at least for the next decade. It's not the kind of project that 
we can say is a good idea for the next couple of years, because 
then we'll just waste a lot of money. It has to be a long-term 
commitment on our part.
    Second, we are very--we are unanimous and very strong in 
the view that USAID should be strengthened and supported as the 
lead institution, in order to advance U.S. global food security 
initiative. And, therefore, it needs to be given not only the 
resources, but the flexibility, in an effort to be able to 
achieve that.
    And, third, we think that one of the important additions or 
expansions that should be put in place is allowing USAID to 
spend more of its resources on local and regional purchases of 
food aid.
    Fourth, we believe that there should be much more 
attention, as you propose in the Lugar-Casey bill, for a 
stronger focus on agriculture research, education, and 
extension.
    And finally, but--not finally; first, really, in terms of 
need, but finally, on my list--as virtually every speaker has 
talked about today, about both sides of this desk, is that we 
must highlight and pay attention to the roles of women. And 
this must be much more than just the rhetoric of talking about 
it, but actually putting in place some of the things that were 
discussed today, as far as measuring how we reach women.
    And in the interest of time here, Senator, I want to offer, 
following up on Senator Cardin and others' discussions of these 
issues that, if you are interested in placing in the record a 
variety of ideas of how, actually, this not only could be put 
in place, this idea of reaching women and involving women, but 
also, potentially, how it could be followed and evaluated.
    Senator Lugar. Do you have items to place in the record 
today?
    Ms. Bertini. I can place some in verbally, but I'd like to 
send some to you to follow up on the discussion today----
    Senator Lugar. We'd appreciate that.
    Ms. Bertini [continuing]. If that's all right.
    Thank you very much.
    Senator Lugar. Secretary Glickman, welcome.

      STATEMENT OF HON. DAN GLICKMAN, FORMER SECRETARY OF 
     AGRICULTURE, COCHAIR, GLOBAL AGRICULTURAL DEVELOPMENT 
INITIATIVE, THE CHICAGO COUNCIL ON GLOBAL AFFAIRS, WASHINGTON, 
                               DC

    Mr. Glickman. Thank you, Senator.
    I'll be careful how much I praise you, because you might--
it might not necessarily help you. But, I've known you for a 
long time, and you are an ideal leader in this country, and you 
have done so much to promote this particular issue, and I am 
just deeply grateful to count on you as a friend----
    Senator Lugar. Thank you.
    Mr. Glickman [continuing]. As well as a former colleague.
    As you may know, I have switched jobs in the last few 
months. And I'm not here to promote my new job, but I'm now 
president of an organization called Refugees International, 
which, probably, will be seeking your assistance and your--at 
least getting an appointment to talk about issues that we care 
about, and very much indirectly related to many of the issues 
that we're going to talk about today. So, I thank you.
    I want to just reaffirm a couple of points. Number one is, 
I think your legislation is important. It will provide long-
term success in this effort. It will be a sustaining effort. It 
will provide coordination and direction and transparency.
    And, you know, the fact that we can get something done into 
authorizing law is really important. These are very fine people 
who testified. I've worked with both of them in various parts 
of my life, and I can't think of two better people leading 
their respective agencies.
    And Secretary Clinton, certainly, is in that mode. But, 
Congress needs to set the parameters for these things, needs to 
set some guidelines for these things. And I think it will help 
dramatically in the effort.
    The second thing I would say is that the commitment, as 
Catherine said, must be long-term. It's not going to work 
unless it's long-term--at least 10 years. This is a long-term 
effort.
    To reiterate her--what she said also, that the USAID should 
be the lead agency for the implementation of a global food 
security initiative over the long term. There are a variety of 
agencies with serious roles. Clearly, the diplomatic functions 
of the State Department are key; certainly agriculture research 
parts of the United States Department of Agriculture are key. 
But, this, historically, has been the development agency. And 
it's kind of lost its way over the years, for a variety of 
reasons.
    But, I've been in government long enough to know that 
sometimes moving boxes around doesn't do much. It just makes 
people who move the boxes around happy. But, in this case, in 
my judgment, to be successful, there's got to be somebody, 
someplace clearly in charge. And that doesn't mean there can't 
be other actors here, in coordination, and the task forces to 
try to work these things together can work. But, my experience, 
in almost anything I've done in my life, but particularly in 
government, with turf being such a big part of the realities of 
what we deal with every way, is that a leader has to emerge 
that can direct action and, hopefully, inspire people to follow 
him or her in that process. And maybe it can be done through a 
division of effort, but I would just urge you--if that's going 
to be the case, then I would just urge you to keep riding herd 
as hard as you can to ensure that there is a minimum of this 
turf battle that takes place. Because, it's there. It's a 
natural phenomenon. It's part of the DNA of government. And 
what I hope that we've heard before is, the people who are here 
are committed to try to reduce that as much as they can. But, I 
know that those battles exist.
    One very positive thing I heard today was--is that, at the 
ambassadorial level, the State Department is really pushing the 
ambassadors, the CEO of the United States of America in each 
one of these countries, to take the leadership role, to know 
the significance and importance of pulling these teams 
together. These teams have to be pulled together in order to 
get this done. Otherwise, I fear that we're just going to be 
scratching the surface and struggling and not showing very 
many--much results.
    The United States of America used to be the undisputed 
leader in the world, helping people feed themselves, cloth 
themselves, basically allow people to become what the Good Lord 
intended them to become. And, you know, this is an opportunity 
here. We now have the Congress interested. We have the 
Secretary of State. We have the President interested. We have 
great leaders in this thing. Now is really the time to move.
    And I guess, from my perspective, what I would hate to see 
is that inertia of government slowing things down to such a 
degree that, in fact, we can't get it done.
    So, I guess, you know, ultimately, a lot of these decisions 
will be decided by the President and by the Secretary of State 
and by you and the Members of Congress. But, I would hope that 
we give USAID the kind of independence, authority, resources, 
flexibility and staffing necessary to carry it out, to do the 
development functions, working in coordination or collaboration 
with the State Department on its diplomatic functions, but 
recognize that the buck has to stop somewhere. And if the 
administration is carrying this out, it's got to stop with 
someone in that administration with the ability to actually get 
where the rubber hits the road, get what needed to be--get 
done--get it done. So, that would be my comment to you today.
    Thank you very much.
    [The prepared joint statement of Ms. Bertini and Mr. 
Glickman follows:]

  Prepared Joint Statement by Dan Glickman, Former U.S. Secretary of 
  Agriculture and Catherine Bertini, Former Executive Director of the 
 U.N. World Food Programme; Cochairs of The Chicago Council on Global 
          Affairs' Global Agricultural Development Initiative

    Chairman Kerry, Senator Lugar, and members of the committee, thank 
you for giving us the opportunity to appear before you to discuss our 
ongoing work to identify opportunities for the United States to provide 
leadership in advancing global food security.
    The Chicago Council on Global Affairs' Global Agricultural 
Development Initiative, which we cochair, purposes to examine the risks 
posed to the United States and the world by rural food insecurity, 
explore the role of agricultural development in alleviating those 
risks, and identify opportunities where the U.S. can better address 
these challenges by a renewed focus on agricultural development in its 
foreign assistance programs.
    The work of the Global Agricultural Development Initiative builds 
upon a study conducted by The Chicago Council in 2008-09, which 
explored the challenges posed by global food insecurity in sub-Saharan 
Africa and South Asia and the appropriate role for this issue in U.S. 
foreign and development policy. The study concluded that nearly two-
thirds of the people living on less than $1 a day live in rural areas 
and depend on agriculture for their livelihoods. Moreover, the study 
also found that it was in America's security, economic, and diplomatic 
interests to work aggressively to alleviate the problem of global 
poverty, and that the most effective way to do so was through investing 
in the development of sustainable agriculture and food systems in the 
developing world. For these investments to be effective, they must 
target smallholder farmers, as they make up the majority of the world's 
rural poor, and pay special attention to the critical role women play 
in farm-level decisions. This study built upon the momentum created by 
Senators Lugar and Casey's introduction of the Global Food Security Act 
(S. 384) in summer 2008.
    We appeared before this committee in March 2009 to present our 
study's recommendations for how the United States could provide 
international leadership to begin reducing global food insecurity 
through increased investments in agricultural development. The study's 
full conclusions and recommendations can be found in the report, 
``Renewing American Leadership in the Fight Against Global Hunger and 
Poverty'' (The Chicago Council on Global Affairs, 2009).
    Since last year, food security, and the important role agricultural 
development can play in advancing it globally, has continued to be 
discussed among those in the United States and international 
communities. The food price crisis of 2008, the spread of abject hunger 
and poverty to over 1 billion people in 2009, and the need to nearly 
double food production to meet the global demand by 2050, has caused 
world leaders to give new attention to how agricultural development in 
poor regions can expand the sufficiency and sustainability of the 
world's food supply.
    The U.S. Senate responded quickly to these developments by 
introducing the Lugar-Casey Global Food Security bill in summer 2008. 
Upon taking office, President Obama has made clear his commitment to 
global food security. At the G20 summit in April 2009, the President 
called for a doubling of U.S. support for agricultural development in 
FY10-FY13. At L'Aquila in July 2009 the G8 announced a new $22 billion 
multinational food security initiative. In September 2009, Secretary 
Clinton made public the U.S. Government outline for its Global Hunger 
and Food Security Initiative, and developing country leaders continued 
to recognize the need to invest in their own food security. Finally, as 
we speak, the World Bank, U.S. Department of Treasury, and others are 
launching the Global Agriculture and Food Security Program, a 
multilateral trust fund that purposes to finance efforts in developing 
countries to improve agricultural productivity, nutrition, and access 
to food. We were pleased that President Obama requested that Secretary 
Clinton oversee the development and implementation of a U.S. food 
security strategy, and applaud the attention, priority, and leadership 
the Secretary has given to this issues since early 2009.
    In spite of these initial commitments, further progress in 
overcoming global food insecurity faces many obstacles. In times of 
economic hardship, it can be politically challenging to get sustained 
support for foreign assistance programs, however beneficial to U.S. 
interests they may be. Moreover, many critical issues--ranging from the 
ongoing conflicts in Afghanistan and Iraq, to reforms of health care 
and immigration policies--continue to vie for administration and 
congressional attention. Finally, it will be challenging, yet not 
impossible, to sustain U.S. leadership and financial and technical 
support for a long-term U.S. food security initiative.
    It is our firm conviction that a long-term, well-resourced 
commitment by the U.S. Government to alleviating global food insecurity 
can drastically reduce global poverty, and that such a commitment is in 
the Nation's security, economic, and diplomatic interests. On-going 
U.S. leadership, at both the executive and congressional levels, in 
partnership with developing nations, other bilateral and multilateral 
donors, international organizations, NGOs, and private sector 
stakeholders, will be critical to a U.S. initiative's success.
    Advancing global food security will continue to be in America's 
economic, security, and diplomatic interests for the foreseeable 
future. Agricultural development has been demonstrated as the most 
effective way to alleviate rural poverty over the long term. Nearly 75 
percent of the world's poor resides in rural areas and depends on 
agriculture for their livelihoods. Moreover, the majority of population 
growth projected to occur between now and 2050, and therefore much of 
the increase in demand for food, will take place in developing 
countries. Investments in agriculture and food systems reduce poverty 
directly by increasing farm incomes and the availability and access to 
food, and indirectly, by generating employment and reducing food 
prices. These investments have been demonstrated to be twice as 
effective in reducing poverty as investments in other development 
sectors.
    Investing in global food security also advances U.S. national 
security interests. Through ongoing leadership on food security, the 
United States can renew ties and relationships in regions of heightened 
strategic concern, increase its political influence and improve its 
competitive position, while hedging against the serious future danger 
of political instability. The United States is already seeing the 
benefits of investing in agricultural development as part of its larger 
foreign policy strategies in Afghanistan and Pakistan. There are 
further opportunities to strengthen relationships with regions of 
heightened concern, throughout Africa and Asia, by providing 
fundamental investments needed to stimulate economic growth. U.S. 
global food security policy also mobilizes the talent and influence of 
America's best institutions--its world-renowned agricultural research 
apparatus and land-grant universities. To address rural poverty and 
hunger in these regions is a wise and efficient deployment of America's 
``soft power.''
    Moreover, investments in agricultural development will help the 
United States hedge against future demands on the agricultural and food 
sectors. By 2050, research suggests that global demand for food will 
double due to increases in population growth, shifts in dietary 
preferences, changes in climate, and scarcer resources. Climate change 
and resource scarcity, primarily the growing limited availability of 
fresh water, will affect agricultural productivity worldwide--from 
farms in Nepal and Ethiopia to those in Iowa and Kansas. If the world 
is going to be able to meet the growing demand for food, and avoid a 
significant increase in poverty, it will need to produce more, using 
fewer resources, in increasingly temperamental climactic conditions. 
Experts suggest that farmland in the developing world, much of which is 
currently underutilized due to lack of irrigation and access to 
productivity enhancing inputs and technologies, will be some of the 
only land where it will be feasible to dramatically increase production 
to meet the needs of the global food supply.
    Finally, increased economic growth in the developing world will 
create new trade and investment opportunities for American business. 
Already in South Asia, where GDP growth averaged above 8 percent 
between 2005 and 2008, American investors and exporters are making 
important gains. In 2007, U.S. total exports to sub-
Saharan Africa totaled $14.4 billion, more than double the amount in 
2001. Research also suggests that as production in the developing world 
increases incomes are raised and dietary preferences shift, causing 
demand for U.S. agricultural commodities increases. A renewed American 
focus on alleviating poverty reduction through agricultural development 
will pay significant economic dividends in the long-run, to both U.S. 
businesses and the U.S. farmer.
    The Obama administration and 111th Congress have recognized the 
importance of providing political leadership and financial support for 
a U.S. global food security initiative. The administration's Global 
Hunger and Food Security Initiative led by Secretary Clinton and now by 
USAID Administrator Rajiv Shah, and the President's request to Congress 
of $1.8 billion for funding toward agricultural development in FY11, 
are important first steps. However, passing authorizing legislation, 
which supports and complements the administration's Initiative, will be 
critical to the long-term success of a U.S. global food security 
policy.
    Institutionalizing global food security as an official component of 
U.S. development policy will cement for the long term the good work 
this administration and Members of Congress, many present at this 
hearing, have done on these issues to date. Empirically, policies that 
have been supported by both the executive and congressional branches 
have had the greatest success, in part because they have been reviewed 
and resourced over a multiyear period. The U.S. Food Assistance 
Programs, the President's Emergency Plan for Aids Relief (PEPFAR), and 
the Millennium Challenge Corporation (MCC) have improved the lives of 
millions worldwide, and continued to be effective after the Presidents, 
Cabinet Members, and Members of Congress that fought for their 
establishment left office.
    Legal authorization of U.S. global food security efforts also gives 
direction and coordination to the various entities in the U.S. 
Government that are working on these issues. A recent GAO report 
identified 19 U.S. agencies that carry out or are involved in food 
security activities. The current administration has set up tools to 
begin coordination of these agencies' programs, but legislation will 
provide an official framework to direct differing agencies' mandates 
and provide a permanent mechanism for coordination and cooperation.
    Finally, legislation would provide a framework for regular review 
and evaluation of U.S. food security policy. These are useful tools for 
overseeing and implementing agencies to help see if programs are having 
the desired impact on the ground, but it also would also provides 
transparency and congressional understanding of America's work in this 
area, which would help support the regular, annual appropriation for a 
national food security policy.
    Although there are other urgent priorities confronting the 
Congress, the time is ripe to consider and pass legislation on global 
food security. International and national leaders and multilateral 
organizations are giving significant attention to the challenge of 
global poverty because of the recent food price crisis and ongoing 
period of economic distress. Moreover, unlike many other issues facing 
Congress and the administration, global food security, and decreasing 
international poverty and hunger, has always been a bipartisan issue. 
Relatively small investments in agricultural development ($1-$2 
billion/annually), if done strategically and sustained long term, are 
responsible and effective uses of taxpayer dollars because of their 
proven success. According to a 2008 study by the International Food 
Policy Research Institute in Washington, DC, if total investments in 
agricultural research and development in sub-Saharan Africa were 
increased to $2.9 billion annually by the year 2013, the number of poor 
people living on less than $1 per day in the region would decline by an 
additional 144 million by 2020. If annual agricultural research and 
investments in South Asia were increased by $3.1 billion by 2013, a 
total of 125 million more citizens in this region would escape poverty 
by 2020, and the poverty ration in the region would decrease from 35 
percent to 26 percent.
    As the administration and Congress continue to develop a national 
global food security policy, we offer the following recommendations 
based on our experience working on development, agriculture, and 
emergency assistance issues in the U.S. executive and congressional 
branches and international organizations:

  <bullet> Provide sustained political and financial support for 
        agricultural development for the next decade.
      Unlike investments in other areas of development, where the 
        results can be seen shortly after program implementation, 
        agriculture and food systems are built through long-term, 
        strategic investments across multiple sectors (e.g., research, 
        education, infrastructure development, local and national trade 
        capacity) and by engaging multiple stakeholders (e.g., 
        bilateral and multilateral donors, international organizations, 
        recipient countries, NGOs, businesses, and local civic 
        organizations). Because of these complexities, it will take 
        time for agricultural development to produce its full impact on 
        the ground. However, if the United States can sustain its 
        leadership and provide technical support and small financial 
        investments to a global food security initiative for a decade, 
        it will produce the desired result: higher productivity on 
        small farms in underdeveloped countries, higher incomes for 
        small farmers and their families, a dramatic increase in the 
        global supply of food, and a significant decrease in the number 
        of people, especially women, living on less than $1 a day.
  <bullet> Strengthen and improve USAID as the leading institution to 
        advance the U.S. global food security initiative.
      Successful assistance policies cannot emerge from inadequate 
        institutions or from institutions that do not coordinate with 
        each other and lack strong political leadership. A strong 
        institutional framework is required to turn good ideas into 
        operational policies and ensure that any added budget resources 
        appropriated by Congress will be put to proper and effective 
        use.
      We recommend that clear lines of authority and command be 
        established inside the executive branch, emanating first from 
        the White House, then through a single lead agency for 
        international rural and agricultural development and hunger 
        reduction. We believe a revitalized and strengthened USAID 
        should be that lead agency. USAID has been carrying out 
        agricultural development and U.S. foreign assistance policies 
        for decades, and is uniquely positioned within the State 
        Department to coordinate America's development policy with its 
        overall foreign policy goals. However, in recent years USAID 
        has been significantly weakened. To restore its strength, we 
        recommend USAID be given an independent relationship with the 
        Office of Management and Budget in order to give it authority 
        and flexibility to most effectively carrying out U.S. 
        development and food security activities. Its leadership on the 
        Global Hunger and Food Security Initiative should be supported 
        by the White House, other Cabinet agencies, including the U.S. 
        Department of State, and in any corresponding legislation. 
        Finally, in order to play this enlarged role in the area of 
        agricultural development, USAID must be given enhanced 
        professional staff resources in addition to an increased 
        budget.
  <bullet> Improve America's food assistance policies by increasing the 
        authorization and appropriation of funds for local and regional 
        purchase of food aid.
      America is the world's largest donor of food aid to hungry 
        people, a matter of justifiable national pride. Hundreds of 
        thousands of lives have been saved through this assistance, and 
        hundreds of millions of lives improved. The in-kind food 
        assistance provided and distributed by the United States, the 
        World Food Programme, other bilateral donors, international 
        organizations, and NGOs should be commended as one of the 
        greatest emergency relief and development tools the 
        international community has to alleviate global hunger. 
        However, our food aid programs, which are effective in 
        emergency situations, do not go far enough in dealing with 
        long-term, systemic problems, and America does not get enough 
        payoffs from its large food aid budget because of several 
        longstanding practices in the way it is delivered.
      There are many ways that America's food aid policies could be 
        improved, but we would especially recommend increasing 
        authorization and funding for local and regional purchase in 
        long-term development situations. International purchase allows 
        food to be procured much closer to the beneficiary, reducing 
        transport costs and ensuring compatibility with local diets. 
        Local purchase also supports local markets, putting more money 
        into the pockets of poor farmers, which in turn, boosts 
        sustainable local and regional agricultural development and 
        helps reduce poverty.
  <bullet> Increase support for agricultural research, education, and 
        extension.
      Significant investment--both financial and technical--into 
        increasing agricultural research, education, and extension 
        programs in the developing world will be critical to advancing 
        global food security. The administration's Global Hunger and 
        Food Security Initiative and the Lugar-Casey Global Food 
        Security bill both have provisions to increase support for 
        these components. We recommend that these areas be a key focus 
        of any national global food security policy and should include 
        providing financial support to the Consultative Group for 
        International Agricultural Research (CGIAR), individual 
        country's National Agricultural Research Systems (NARS), and to 
        the Collaborative Research Support Programs (CRSPs) run out of 
        U.S. land-grant universities. Moreover, the United States 
        should also support the development of higher education 
        capacity and performance within specific regions in the 
        developing world. These institutions could provide research, 
        technology development, and extension services to best suited 
        to expand agricultural productivity in its region.
  <bullet> Begin implementation of a U.S. food security initiative 
        quickly.
      There is no time to waste in implementing a U.S. global food 
        security initiative. Under a ``business as usual'' scenario, 
        rural poverty and hunger will continue to worsen. These 
        problems will become far more difficult to address with every 
        year of inaction. The time to begin implementation of this 
        policy is now.

    We applaud and support the initial steps both the U.S. 
administration and Congress have taken to make food security a central 
component of U.S. development and foreign policy. We want to thank 
Senators Lugar, Kerry, and Casey, and the other members here today, for 
their leadership on these issues. Many of the actions outlined in the 
administration's Global Hunger and Food Security Initiative and the 
Lugar-Casey Global Food Security bill have been proven effective in the 
past--through the remarkable earlier achievements of the Green 
Revolution--when adequately funded. If administration and congressional 
leadership for a U.S. global food security initiative is sustained for 
the next decade, and the correct technical and financial resources 
provided, it could lift millions out of hunger and put them on the path 
toward self-reliance. It would also invest in America's political, 
economic, and security interests; its institutions; and its moral 
ideals.

    Senator Lugar. Well, I thank both of you for all the 
responsibilities you've shouldered over the years. And I wish 
you every success, Secretary Glickman, in your new 
responsibilities at Refugees International.
    I simply agree with both of you, that we've talked a lot 
today about the whole-of-government approach, but we also have 
tried, in our questions, with very distinguished witnesses, to 
zero in on the specific role of USAID and the State Department.
    Now, one reason we are having this hearing is that the 
committee has worked, through its staff, in a bipartisan way, 
with officeholders in the State Department--among them, 
officials in USAID. It was only a very short while ago that 
Rajiv Shah was named USAID Administrator. This is something our 
committee encouraged for many months, sensing some of the 
trends that have been noted today, with regard to USAID, and 
likewise, its importance. I think we're very excited about 
Administrator Shah's leadership, and I see his testimony today 
as further evidence of that.
    We're also excited that Secretary Clinton has taken a 
personal interest in this area. Without that, assuming a whole-
of-government approach would be much more of a challenge, as 
there are many interests involved in this.
    Therefore, we've come to a point--and this is the reason 
why I'm indebted to Senator Kerry for calling this hearing--in 
which our legislative effort, which passed the Foreign 
Relations Committee back in 2009--has finally gained has some 
traction with the State Department and USAID, As we coordinate 
on additional language that will culminate in the unveiling of 
a new bill. I am hopeful the bill will have some universal 
support in the Congress, simply because of the crucial problems 
it will seek to address. But, it's important to underline the 
issues you have both brought forth today.
    The goals of such legislation are meant to be helpful in a 
humanitarian sense. But, there is also another sense, in terms 
of the world in which we live, as we all talk about the 
problems of international banking, the implications of 
failures, in various countries, which have ramifications on 
jobs, on even the existential ability of a country, such as 
Greece right now, for example, to handle its finances. 
Arguments abound, whether it be with the European community or 
the World Bank or everybody else, as to whose responsibility it 
may be to address these issues, with lingering thoughts that 
there are other nations right behind that may fall into similar 
difficulty.
    We know that these are systemic worldwide difficulties, and 
if our country does not take a leadership role in solving these 
issues, the ramifications for the future will not only be 
starvation, which we've illustrated today, but a world that is 
so insecure for our young people that we will rue the day we 
were not more farsighted and had the resources we presently 
have at our disposal.
    So, it's in that sense we hope there is leadership, with 
USAID at the helm in coordination with the other involved 
parties, including our Ambassadors, as has been pointed out, as 
a focal point. Ambassadors will have to try to maintain some 
control over the unique factors at play affecting the work 
undertaken by their respective embassies. We will have hearings 
from time to time, as parts of the U.S. Government come into a 
country and don't inform the Ambassador or are seemingly rather 
out of touch.
    You've both presented the idea that this has to be a long-
term proposition. Every country that we are visiting with now 
agrees that this really has to be a commitment that is enduring 
and comprehensive in nature.
    Now, I would just say, in a personal sense, I understand 
this. I don't want to overemphasize my farm-family background, 
but, I've seen, on the acres of corn that we grow, a growth of 
about four times the yield that my dad was getting in the 
1930s. This has occurred physically. I've witnessed it. It's 
still being harvested. So, we're worried about the price of 
corn.
    Now, I would just say to American farmers who are concerned 
about people buying food or producing it abroad, as opposed to 
either importing it from us commercially or hoping that 
agencies would ship it to them through some emergency process, 
that the market is very big. If we're talking about twice as 
much food in the world, required just to maintain where we are 
by 2050, then this is a lot of production. It means that our 
markets are going to be strong, if we can engage with the World 
Trade Organization and work out all of the problems that occur 
right now in the trading of food worldwide. The problem of 
governments that shut down exports in response to pressures on 
food supplies and prices needs to be addressed. I think our 
colleagues today have said this. Why would the American public, 
in addition to a natural humanitarian reaction, find all of 
this to be more than interesting? In many cases, the fuure of 
our domestic agriculture will be one in which farmers will need 
to produce more on U.S. land to provide for these markets and 
will make a good livelihood doing so, as most of our young 
farmers now entering the business know.
    So, there is a very considerable American self-interest in 
this. It is also important that this committee in coordination 
with the executive branch finally get a piece of legislation 
that the President of the United States and Secretary Hillary 
Clinton can advocate on behalf of and urge Congress to pass, 
even in the midst of the many other issues we face.
    Your testimony is tremendously helpful in trying to push 
this along. If you had not already testified to this point, I 
would have asked you for your comments about this whole-of-
government approach. With both of you having been involved in 
executive branch, you could certainly discuss the prospects of 
this ever really coming about. Who needs to construct such an 
approach? You've said, ``Well, USAID needs to do it.'' But, 
obviously, it needs the support of higher authorities such as 
the Secretary of State, and the President.
    Do you have any further comment on this matter? I reiterate 
this because it is so critical in ensuring that all of this can 
work.
    Mr. Glickman. Well, first of all, you have a President and 
a Secretary of State who've made this a priority. That is--for 
a long time, that's----
    Senator Lugar. Yes.
    Mr. Glickman [continuing]. We haven't seen that, and that 
makes a big, big difference.
    You know, in terms of the--what I call ``basic development 
decisions,'' and how technology and research is transferred, 
how you bring the--let's say, the American Land Grant 
institutions into coordination with the academic institutions 
elsewhere--where I call the actual--where the rubber meets the 
road, on the ground, I think that's a function of the 
development agency. And that's what--AID needs to be empowered 
to do that job, like they did in the 1960s and '70s, and 
participated in the Green Revolution, and saved hundreds of 
thousands of people from death and starvation, maybe millions 
of people.
    But, you know, it's clear that in a government as 
complicated as ours, you've got to have Congress engaged, on an 
intimate basis because they're the appropriators. I mean, 
they're the authorizers--where the money comes from. And you 
also have to have the research arm of America, whether it's the 
Department of Agriculture or the land grant institutions or the 
private sector, who are involved in creating new products all 
the time, involved.
    And, you know, I do think that we have--we're finally 
focused on this issue, where we weren't, 5 or 10 years ago. And 
maybe it was because of the supply shortages. I remember, when 
I was in the House, I first came here and was--constant 
problems of supply management schemes in order to get 
production, supply and demand in line. And today, I think we've 
realized that we don't need to do that like we did. And you 
were, of course, one of the leaders in trying to get rid of 
some of those practices. And I probably was on the other side 
of you when I was a Congressman from Kansas way back then.
    Senator Lugar. Not to worry. [Laughter.]
    Mr. Glickman. Yes, right.
    But, I think that, generally speaking, people of good will 
can come together and put--and try to solve the problems of 
hungry and starving people, because correcting those problems 
have remarkable ramifications on politics, on society, on doing 
the right thing; and also on national security, as well.
    Ms. Bertini. If I might, Senator.
    Senator Lugar. Yes.
    Ms. Bertini. When I was with the World Food Programme, and 
spent much of 10 years traveling in the developing world, I was 
able to see USAID up close in many, many countries, and I could 
see the depth of their knowledge and their leadership in the 
aid community, beyond representing the United States, but also 
leadership among the other bilateral aid agencies. And they 
were very, very important as advisors to us in the 
international organizations. I--but, today, when we sit here, 
we constantly hear, both publicly and privately--even from the 
strongest defenders and supporters of AID, hear about their 
weaknesses. And we can see what's happened over time; they've 
been micromanaged by Congress and by various administrations. 
They have lots of earmarks about what they have to do, that 
cuts back on their flexibility. They no longer have a 
relationship with the--a direct budget relationship with OMB. 
And they have outsourced so much of their work that it's hard 
to manage all these other entities that aren't even part of the 
U.S. Government.
    So, there are a lot of things at USAID that need to be 
fixed, or else we're going to sit here, 2 years from now, still 
talking about how AID needs to be strengthened.
    It has, as you have pointed out, now, a terrific new 
administrator. Dr. Shah and I worked together closely at the 
Gates Foundation; in fact, he brought me in there. And I know 
how brilliant he is and what a good strategist he is and how 
goal-oriented he is. But--and that alone can be tremendously 
useful for the U.S. Government in his role at AID, but he needs 
support. He needs senior political people nominated and 
confirmed. He needs some budget authority. He needs to have--as 
my colleague Dan was saying, he needs to be in charge, and to 
be respected as being in charge, in terms of how the rest of 
the operation needs it. Congress should let up from a lot of 
the telling-you-what-to-do-things that they do with AID. So, he 
needs space and flexibility. He has the talent, but he needs 
all of us to be supporting AID in ways that haven't been done 
before, or at least not in the recent past.
    Senator Lugar. I appreciate your mentioning the Gates 
Foundation. At the onset of today's hearing, I cited a piece 
from this morning's Wall Street Journal by our Secretary of the 
Treasury and Bill Gates that I asked to be added to the record 
Also, we've had testimony, as Chairman Kerry pointed out, from 
Bill Gates about his interest in food security.
    I mention this because, in conversations that I've been 
privileged to have with Bill and Melinda Gates about, 
specifically, how markets could be set up in various African 
countries through the construction of roads or other forms of 
infrastructure to facilitate the movement of goods, we end up 
coming back to an item that we mentioned earlier on, reminding 
me of the testimony of Dr. Norman Borlaug before the 
Agriculture Committee. We asked Dr. Borlaug to come back to the 
committee annually, in order for him to report on his 
activities and express his point of view on broader happenings 
related to agriculture taking placed throughout the world. In 
the last few years that he was able to testify, he was working 
principally in Africa. Extraordinary events had occurred in 
China and in India, not only through his efforts, but through 
many people who he inspired.
    We also came back to conversations that each of you has 
had, and I am certain that Dr. Borlaug had with people who are 
genuinely concerned about genetically modified seed, 
fertilizer, or anything that has the GM label on it. I've had a 
good number of such conversations in Brussels with officials 
from the European Union and with others in the German 
Government. It becomes almost a theological issue in which the 
feelings are so great about saving the environment, saving the 
soil, saving other plants, birds, or even insects. Such ideas 
are literally implanted in Africa with the message by Europeans 
ascribing to these beliefs that the ability of the African 
people to import their food is dependent on continued adherence 
to their point of view on GM products. It suffices to say that 
this has led to the roadblock we find ourselves in today.
    Now, the Gates Foundation has attempted, as a private 
organization, to break through on this, and they have done a 
lot of good, and, thank goodness, will continue to be 
advocates. I'm grateful for that. But, this still remains a 
serious problem.
    In fairness to the European Union, on one occasion while I 
was in Brussels, a report was published out of the EU 
indicating a considerably more liberal viewpoint with regard to 
genetically modified practices. And that, in fairness, has 
manifested in many of their deliberations. So, I don't want to 
characterize the Europeans per se. Although, I would just say, 
with many German legislators that I visited on the same trip, 
the feelings were adamant that anyone would be sure to despoil 
the whole neighborhood by even thinking of such a practice.
    How do we move beyond this? After all of our conversations 
about the lack of productivity here really get down to 
situations where, for example, a single woman is trying to 
handle less than an acre of land, with very deficient seed, 
fertilizer, or whatever she has to work with, almost no market 
for her product, and the hope there might be some harvest just 
to provide some nourishment to her family. This is still the 
overall practice that we're looking at. We can talk about this 
research, and other people trying to produce breakthroughs of 
this sort, but, from your expertise, can you discuss how we 
move beyond the status quo?
    Mr. Glickman. To arbitrarily restrict research, based on, 
in large part, a nonscientific perspective of the world, is a 
tragic mistake. I mean, somebody talked about climate change 
today. How--I think it was--Senator Kerry talked about conflict 
in Ethiopia because of dry-land agriculture and the ability to 
find food for animals.
    And so, research can look at ways to grow crops with less 
water, less pesticides, more adaptably, and more nutritiously. 
I understand--because when I was Secretary, I dealt these 
issues, and I understand that you have to have a sound, 
effective regulatory scheme, so that--and you've got to also 
deal with some of these issues of ownership and intellectual 
property rights, so that the fruits of the research are 
available in the developing world in sensible ways.
    And I know that the Gates and the Clinton foundations, and 
others, have been working on that. So, that's got to be all 
part of the situation. But, to arbitrarily restrict research, 
when that's what has caused humankind to achieve so much of 
what we've done, is just downright stupid.
    And it--I get the sense that there--especially in the whole 
climate change environment, there is a growing recognition that 
we've got to be open to new technologies to deal with some of 
these issues. We won't be able to feed ourselves.
    You know, this whole thing with the volcano has struck me 
that--like, well, what impact is that going to have? What if we 
go through a period of great volcanic activity, and it begins 
to cool the atmosphere and then it's going to affect crop 
production? You've got to have research that deals with those 
kinds of things. And some of that research may involve genetic 
technology, genetic engineering. We're doing that with human 
research now--I mean, targeting cancer therapies, based upon 
your DNA, and then being able to move the genes around to be 
able to find cancer therapies that are more targeted.
    One of the things that has struck me, that I think the 
research needs to focus on as much as they can, is things which 
actually benefit the human species or the animal species. So, 
we--in the past, there's been a tendency that some of these 
technologies look like they're just, perhaps, enhancing the 
economic value of the product that's being produced, without 
having a benefit associated with it. And I think--at least 
there's a perception of that out there. But, to not do the 
research is idiotic.
    Ms. Bertini. Related to that is--part of the problem is the 
lack of knowledge, and perhaps, in some cases, a lack of 
information available about any sort of impact of consumption 
of large amounts of food that has been genetically modified in 
populations where most of their food that they do consume could 
be genetically modified. And I--so, I think that's one area of 
research, which, if we had more background about that, would go 
a long way, in terms of helping to answer questions that have 
been raised, particularly in Africa, about, Is this good to 
eat? Remember, the big issue, some years ago, when Zambia and 
Zimbabwe said, ``We don't want any of this genetically modified 
food.'' Part of the issue was, the U.S. said to them, ``Well, 
we eat this, and it's OK.'' And they said, ``Yes, but so much 
more of our diet is made up of this. So, what kind of research 
is available to show us that it's OK if 70 percent of our 
intake is from this kind of food?'' And I'm not sure that those 
kind of questions ever were successfully answered. If they 
were, that could help.
    But, ultimately, also from an African perspective, there's 
the issue of markets, which gets back to the Europeans. And as 
more and more countries outside of Africa are developing--using 
genetically modified capabilities, part of that issue might end 
up being moot, because it will be very difficult to keep the 
``purity'' of available food that hasn't been genetically 
modified.
    What I've heard more from African representatives with whom 
I've talked about this than anything else is, ``Please don't 
leave us behind. We feel like we were left behind in the Green 
Revolution that hit Asia and Latin America, and we don't want 
someone else deciding for us whether or not this is appropriate 
technology for us.'' So, the bottom line will come back, then, 
to African governments making this--these decisions.
    Mr. Glickman. If I just may add something. I've always felt 
that some of this--the discussion of this issue has, 
historically, taken on a bit of an anti-American sentiment to 
it, and may be encouraged, at times, by some of the companies 
that held the patents on some of these issues not being as 
careful about how they market them or how they monetized them. 
And, hopefully, we're seeing a change of that, particularly 
with the efforts of foundations like Gates and Clinton and 
others. But, I think there's--some of the suspicion may not be 
related to science at all, but may be politically raised.
    Senator Lugar. Senator Casey.
    Senator Casey. Well, thanks very much.
    I know I'm the late arrival here, and I was--we're all 
doing a little juggling, here.
    But, first of all, I want to thank you both for, not just 
today and your testimony, but your great leadership and your 
passion about this issue for so many years. And we need that. 
I--we all figured out, a long time ago, that all the answers 
aren't here on Capitol Hill; we need some help from outside, 
even from those who have been on Capitol Hill for a while.
    Mr. Glickman. Thank you.
    Senator Casey. Mr. Secretary, we're grateful.
    Your testimony makes it very clear what you think the steps 
are that we should implement and undertake. I did want to make 
note of one--I think it's your last bullet point, or second-to-
last bullet point, on page 5 (page 42 of this print)--
Increasing support for agricultural research, education, and 
extension. Now, as a Pennsylvanian that has a big institution 
like Penn State, I'm dutybound to mention that. But, in a very 
serious way, I think that's--part of this message that we have 
to deliver as we're working on this and try to implement policy 
is that this can be a very positive development for these great 
institutions and the students and professors and people with 
doctoral degrees that want to help the world. We can give them 
more of an opportunity to do that. So, I think it's very much a 
positive message to send to the world, that we're going to try 
to create more expertise around the world for that kind of--
those kinds of disciplines.
    But, I guess I'd ask you two questions. One is, How do you 
assess where we are now, when it comes to that--those three 
areas--research, education, and extension--kind of where we 
have to get to?
    And then the second question that I'd ask you to answer, is 
there anything in the administration's strategy that you have a 
real concern about, or that you think will be difficult to 
implement? We want to have an honest dialogue here about 
implementing their initiative and getting our legislation 
passed. But, is there anything, in particular, that you have a 
real concern about that you think we have to change or be 
conscious of to--as we begin to implement?
    Mr. Glickman. You want to go first?
    Ms. Bertini. Yes. Thank you, Senator.
    Well, first of all, we also applaud your leadership with 
Senator Lugar and your bill. And one of the reasons why we were 
pleased to come to testify today is because we think that 
passing this legislation is so important, to put these kind of 
programs in place over the long term. We applaud the 
administration's priority and direction. And it is the right 
time to be doing this kind of work.
    However, we really believe that this must be part of U.S. 
policy over the very long term. And that's one of the reasons 
why your legislation is so important.
    As far as research, education, and extension are concerned, 
we have incredible capacity at Penn State and at the other land 
grant colleges, and historically black colleges around this 
country, as well as at other universities. But, there is a huge 
need, in Africa and in much of the developing world, to share 
expertise.
    The United States used to do much more of this--in the 
1970s and the 1980s, for instance. You'll find, when you 
travel, many people, that are my generation, for instance, that 
were educated in the United States and then went back home and 
are senior agricultural experts in their countries now. But, 
there are not a lot of more junior people because we haven't 
been promoting that kind of work for some time.
    But, whether we bring students from Africa here, or whether 
we help build their institutions--the institutions in Africa 
and elsewhere, which would be even more important, to reach 
more people over the long term--all of those are things that we 
haven't done, and should be doing, and have the great capacity 
to do, through our own educational structures.
    Many countries in the developing world have research 
operations--have a agriculture research institute or some sort 
of a directorate. But, there are a wide range of capabilities 
in those institutes. One thing we could do very quickly, from 
the U.S. Government, is to make an analysis of some of those 
institutes, and then find comparable people at institutions in 
the United States, and give them a menu of opportunities of 
expertise that's available, and say to a country, for instance, 
``We'd like to help build your expertise at your research 
institute. Here's a menu of the kinds of expertise we might 
have available to you.'' Then we could--and then we could fund 
Penn State or Indiana or whomever--Purdue, rather--Cornell, 
Wichita State----
    Mr. Glickman. No, Kansas----
    Ms. Bertini. Kansas State. Kansas. [Laughter.]
    Ms. Bertini. Sorry, sorry.
    Anyway--to be able to give them a menu of, you know, ``Here 
are some of the capabilities. How can we help you?'' And then 
we could fund that university, in order to help them.
    Part of what Dan and I have talked about on the Chicago 
Council is how important it is, again, that we provide a 
listing of the capabilities and availabilities that we have in 
this country, and that we fund support for those institutions, 
but that we do it through the developing country. So, we don't 
want to go and show up and say, ``Hi, I'm from Purdue. I'm here 
to help you.'' We want them to say, ``Gee, we really think 
there is some great expertise in the development of tomatoes at 
Purdue that we want to be able to use. And could we please--
would you fund Purdue to come to us to help?'' And that's 
really, I think, part of that process, for both research and 
education.
    But, the agricultural institutions in Africa are 
overcrowded and need a lot more capacity. We could help in many 
ways through our own institutions.
    Extension--it was mentioned by Dr. Shah in his testimony--
is an area that needs a lot of work, and that's one area where 
it's critical that it be gender-sensitive. Since there are so 
many farmers who are women--the vast majority--and since women 
and men don't necessarily communicate outside of their own 
household, especially on technical matters, and since women are 
much more likely to follow the direction of other women and the 
advice of other women, it's almost a nonstarter that we need to 
build extension capacity that includes large numbers of trained 
women. So, that's just another area where we could provide a 
lot of expertise.
    Mr. Glickman. You know, I remember, your colleague, Thad 
Cochran set up this program, the Cochran Fellows, and they 
bring people from South Africa--it was shortly after Mandela 
came in, and then it's--I think that program is still 
continuing. I don't know exactly what the funding is. And I 
remember--they'd come here. They'd go around. They'd learn 
techniques of agriculture production. They'd also learn a lot 
of business techniques. It was a comprehensive thing. And to 
look into the eyes of these young men and women, and see that 
they now go back and become great entrepreneurs and great 
agriculturalists, and have done so--there's a remarkable 
positive impact. That's just one small type of program. So, 
there are great opportunities out there.
    You know, all the public universities in this country are 
having this terrible funding crisis now. And so, I'm sure that 
these programs are going to be impacted by just the fact that 
the State aid is falling, the tax base is in trouble, and 
everything else. And, you know, your legislation at least will 
keep this in the priority area, and, hopefully, will encourage 
these universities to continue to be involved in these efforts.
    Just two other quick things.
    The Internet. Modern technology does do something that we 
haven't seen in a long time. It allows people to leapfrog, to 
communicate instantaneously. You see massive sales of cell 
phones all throughout Africa, that--you know, I mean, it's like 
they hadn't needed to build an infrastructure of a telephone 
system. They just have cell towers, and they can talk to each 
other.
    And so, one of the things is to explore how modern 
technology can get--a transfer of information faster--transfer 
of all sorts of techniques, to get people to move into an 
economic mainstream, at least in agriculture, much faster than 
they have before.
    Catherine also mentioned the issue of best practices. We 
need to somehow figure out, either AID or somebody working 
internationally, perhaps with the U.N., but perhaps with the 
CGAR network, to develop a place where people can go to and 
find out where the best place is to do this, this, this, and 
this. We see this a little bit, but it's not as well developed 
as--and the land grants can clearly do that.
    Final question, you asked, Is there anything about the 
administration's strategy that's an issue or a problem? I don't 
think, substantively, there is. I think the issue that we've 
raised is more of a process issue, ``Is somebody going to be in 
charge? Where will the real leadership be? Who's going to knock 
heads, so to speak, to make sure that things get done?'' And, 
there, I think that the jury is still out. But, I think their 
heart is in the right place. Their public statement's in the 
right place. And, to date, just from what I saw up here, I 
think that the implementation is in the right place.
    Senator Casey. Do you have--I'm sorry. Go ahead.
    Ms. Bertini. Might I just add two other quick things. One 
is, again, on how--where the money is spent with the 
universities, and especially with the concern that Dan points 
out, that, since the universities are--funding is so tight 
right now, I would plead to be sure that the way the funds are 
used are not just to fill in the gaps, but rather to make sure 
that that funding is going through the university to support 
the need in the developing country; otherwise, we're not going 
to get anywhere. That's one.
    Two is, this whole concept that's in your bill, about using 
U.S. expertise through universities, can be used in other 
creative way--that same concept can be used in other creative 
ways, as well, and I want to mention two.
    One is, for instance, the School Nutrition Association, 
here in the United States, has the Global School--Global Child 
Nutrition Institute--I think I'm saying the right thing, but I 
can correct it later--and what they do is use the capacity from 
American school lunch program administrators to help train 
people in Eastern Europe and in developing countries on how to 
organize school lunches. Now, that's not a university, 
obviously, but they've done it now, and I think in almost 50 
countries. And there have been--a lot of countries have been 
using their own resources, that have developed school feeding 
programs. So, it's a great way to use U.S. capacity for 
something that ends up being sustainable over the long term 
elsewhere, based on the request of the country wanting the 
program.
    And then, a second thing is a student-type-based program. 
And at Auburn University, they've started, a few years ago, a 
program, Students Against Hunger. And they've got programs now, 
in many of the land grant universities around the country, 
where they're working to try to raise awareness about hunger in 
the developing world, in American universities, and then 
transfer some of their own knowledge through work in developing 
countries.
    So, there are a lot of different ways, I think, to use that 
same concept that you've put in this bill to take advantage of 
expertise.
    Mr. Glickman. And that's where things like this can make 
the difference, that we didn't have 10, 15, or 20 years ago.
    Senator Casey. The technology, yes.
    Well, thanks very much. I know we have to go, but I want to 
do at least three things.
    One is, I want to correct the record. I think my first 
reference to Dr. Shah was ``Director Shah'' and it should have 
been ``Administrator Shah.'' So, just so we get his title 
right.
    Second, I want to thank both of you for your work on this. 
We'll need to keep calling on you and asking you questions.
    And I want to, Mr. Chairman, submit my statement for the 
record and thank you, for your work on this.
    [The prepared statement of Senator Casey can be found in 
``Additional Material Submitted for the Record.'']
    Senator Casey. And we've got some work to do to get the 
bill passed, but I know we're--our offices have been spending a 
good deal of time, and the two of us have, so we're going to 
continue to push it forward.
    Thanks, Senator.
    Senator Lugar. Well, thank you very much, Senator Casey. 
And we're grateful to you and to your office.
    And we're especially grateful to our distinguished 
witnesses today for coming to grips with, I think, the basic 
problems of our legislation and the initiative of the State 
Department. And I am hopeful this will supercharge our efforts 
as we move ahead.
    Thank you so much.
    Mr. Glickman. Thank you.
    Ms. Bertini. Thank you.
    Senator Lugar. The hearing is adjourned.
    [Whereupon, at 1:05 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record


            Prepared Statement of Hon. Robert P. Casey, Jr.
                     U.S. Senator from Pennsylvania

    Today, every five seconds a child somewhere in the world will die 
from starvation.
    While the United States has historically played an important role 
in addressing hunger internationally, this simple fact should serve as 
a galvanizing call to action. The 2008 global food crisis brought 
attention to the fact that emergency food assistance was not enough and 
that donors and recipient countries needed to work together to address 
the systemic problems that lead to food insecurity.
    The Obama administration has rightly prioritized food security and 
political support in the Senate is growing through the Lugar-Casey 
Global Food Security Act. Creating an environment where local farmers 
can produce for themselves and their communities as well as easily 
trade and get their goods to market is the key to fundamentally 
changing this ongoing crisis.
    With the host of competing priorities for U.S. attention, I believe 
there are two reasons why food security matters.
    First, this is a humanitarian crisis of immense proportions that we 
can go a long ways toward solving. As one of the richest countries in 
the world, we have a moral obligation to help when we can. This crisis 
is solvable with a combination of assistance and emphasis on providing 
small farmers around the world with the know-how, technology and means 
to provide for themselves.
    Second, global hunger is indeed a national security issue. 
Instability arising from conflict over access to food is a documented 
and real problem. The 2008 food crisis unfortunately brought this into 
acute focus. We saw it in Somalia, where struggles to gain access to 
food have enveloped population centers in violence. We have seen it in 
Egypt as citizen's rioted for access to bread. And we have seen it in 
Haiti where hospital beds filled in 2008 with those injured during food 
riots. Increased instability in any of these countries has a direct 
impact on U.S. national security interests.
    The root causes of this perfect storm of a crisis are by now well 
known, but worth recounting. In 2008, food demand was driven higher due 
to expanding populations and rising incomes. More cereals were needed 
to feed livestock for the production of meat and dairy products and to 
fill rising demand for biofuels. High oil prices combined with weak 
harvests, and rising global demand created a scramble for resources. 
Wheat prices more than doubled and rice prices more than tripled 
between January and May 2008. Twenty-eight countries imposed export 
bans on their crops, driving up commodity prices and limiting supply. 
This led to political unrest across the globe, concentrated among 
developing countries with large, food insecure poor urban populations.
    While this was indeed a perfect storm of events, the underlying 
issues that created the crisis continue. In sub-Saharan Africa, for 
example, 80 to 90 percent of all cereal prices remain 25 percent higher 
than they were before the crisis began. In many Asian, Latin American, 
and Caribbean countries prices are still more than 25 percent higher 
than in the precrisis period. In the wake of the economic crisis, the 
World Food Programme began receiving requests for assistance even from 
countries that previously were able to provide for themselves.
    The peripheral effects of food insecurity are considerable. High 
rates of hunger are shown to be linked to gender inequality, especially 
in terms of education and literacy, which also negatively affects the 
rate of child malnutrition. It is estimated that 60 percent of the 
world's chronically hungry are women and girls, 20 percent of which are 
children under 5.
    Hunger in a country like Pakistan poses both a humanitarian and 
security issue. Last year, over 77 million people in Pakistan were 
considered ``food insecure'' by the World Food Programme. That is 
nearly half of their population. As Pakistan's military is conducts 
continued operations against extremist forces, those numbers could 
increase. Hunger and competition for food can lead to further 
instability and potentially undermine the country's government 
leadership at a very critical time.
    The global food crisis is still a serious problem, and despite the 
efforts of the administration, we still have a lot of catching up to do 
in order to properly respond. According to the Center for Strategic and 
International Studies, U.S. commitment to agricultural development has 
declined in recent years, though emergency food assistance continues at 
robust levels. Worldwide, the share of agriculture in development 
assistance has fallen from a high of 13 percent in 1985 to under 4 
percent between 2002 and 2007. U.S. development assistance to African 
agriculture fell from its peak of about $500 million in 1988 to less 
than $100 million in 2006.
    USAID has been hardest hit during this period. The Agency once 
considered agricultural expertise to be a core strength, but today 
operates under diminished capacity. As recently as 1990, USAID employed 
181 agricultural specialists; in 2009 it employed just 22. In the 
1970s, the U.S. Government sponsored around 20,000 annual scholarships 
for future leadership in agriculture, engineering, and related fields; 
today, that number has fallen to less than 900.
    We simply don't currently have the adequate assistance 
infrastructure government to respond to this crisis, but the 
administration making progress toward building this capability.
    The administration's Global Hunger and Food Security Initiative 
(GHFSI), is a comprehensive approach to food security based on country- 
and community-led planning and collaboration. I welcome this 
opportunity to hear directly from the administration on this effort. 
While I know that the administration has assiduously worked to 
coordinate an interagency process and selection criteria for country 
participation, questions remain in terms of overall leadership of the 
initiative as well as its plans to develop internal expertise and 
capacity that is sustainable over the long term.
    In the Senate, we have also worked to bring attention to the 
world's hungry. Senator Lugar, a respected leader is this field for 
decades, and I joined to introduce the Global Food Security Act. Our 
bill has three major objectives.
    First, this bill will provide for enhanced coordination within the 
U.S. Government so that USAID, the Agriculture Department, and other 
involved entities are
not working at cross-purposes. We do that by establishing a new 
position, the Special Coordinator for Food Security who would forge a 
comprehensive food security strategy.
    Second, it would expand U.S. investment in the agricultural 
productivity of developing nations, so that nations facing escalating 
food prices can rely less on emergency food assistance and instead take 
the steps to expands their own crop production. Every dollar invested 
in agricultural research and development generates 9 dollars' worth of 
food in the developing world. This provision can serve as the vehicle 
for the President's pledge to more than double the U.S. agricultural 
development assistance.
    Third, it would modernize our system of emergency food assistance 
so that it is more flexible and can provide aid on short notice. We do 
that by authorizing a new $500 million fund for U.S. emergency food 
assistance when appropriate.
    This is one of those rare occasions where a serious crisis was 
greeted by a substantial administration response as well as bipartisan 
collaboration in the Senate and House. I am encouraged that there has 
been positive movement toward fundamentally changing how we look at 
food security issues. Such support, however, is not permanent and we 
should enact this multiyear authorization bill to ensure that such 
congressional support exists in the future. We cannot wait for another 
massive food crisis before taking action on this legislation. This is 
the right thing to do and will ultimately enhance the security of the 
United States and our allies.

                               __________

           Responses of Rajiv Shah to Questions Submitted by
                      Senator Christopher J. Dodd

    Question. USAID has lost more and more control over food aid, while 
USDA's control over food aid has grown. I strongly believe that this 
entire portfolio should be brought back under the full and total 
control of USAID. Food aid, at its core, is a development issue and 
America's development experts should be in charge of crafting and 
implementing this policy. In my view one of the principle problems with 
our food aid policy is that it's been taken away from USAID--this is a 
troubling trend in other development areas as well. What is the 
administration's plan to move food aid back within the purview of 
USAID?

    Answer. The distribution of food aid responsibilities between USAID 
and USDA is based on legislation such as the Food, Conservation, and 
Energy Act of 2008 and the Food for Peace Act. On an annual basis, 
USAID manages approximately 85 percent of the total tonnage of U.S. 
international food aid assistance. We are proud of our relationship 
with USDA and under the President's Global Hunger and Food Security 
Initiative we will continue to work closely with them to ensure maximum 
humanitarian and developmental impact from our food aid resources.

    Question. Transportation of food aid to target regions has 
represented as much as 60 percent of U.S. food aid budgets in recent 
years. Is the administration planning to reevaluate the costly and 
often counterproductive practice of transporting food aid from half a 
world away rather than from nearby regions?

    Answer. While U.S.-grown food will continue to play the primary 
role in meeting global emergency food needs, the administration 
requested and received funding in FY 2010 in the International Disaster 
Assistance (IDA) account for emergency food assistance interventions 
such as local and regional procurement, cash voucher and cash 
transfers, which all allow for greater flexibility and timeliness in 
delivering food assistance. The administration is once again requesting 
this IDA funding in FY 2011.

    Question. Children, particularly toddlers and infants, suffering 
from acute malnutrition require nutrients that aren't often found in 
U.S.-sourced food aid. What percentage of U.S. food aid is nutrient 
fortified? Have USAID and the Department of Agriculture integrated 
ready-to-use-foods, which are highly nutritious, transportable and can 
be locally sourced, into our overall food aid strategy?

    Answer. While the percentage varies from year to year, in FY 2009 
approximately 25 percent of USAID food aid and USDA food aid shipped 
abroad was nutrient fortified. USAID has developed a ready-to-use meal 
replacement and is in the process of a trial procurement including an 
efficacy study for its prepositioning overseas. USAID is also working 
closely with USDA on specifications for a ready-to use supplementary 
food that can be used for the recuperation of moderately malnourished 
children.

    Question. How has climate change impacted the frequency of famine 
and episodes of food insecurity? What programs exist to help at-risk 
communities and regions adjust to changing environments ahead of 
potentially disastrous changes?

    Answer. No famines or specific food crises can be directly 
attributed to climate change. The expected impacts of climate change 
over time, however, will likely increase stress on poor communities 
which are the least able to deal with and adapt to the changes.
    Programs to assist communities in mitigating the impact of climate 
change are currently being designed and scaled up to meet needs. For 
example, USAID's Famine Early Warning Systems Network, in partnership 
with the Inter-Governmental Authority on Development Climate Prediction 
and Application Center (ICPAC) in East Africa, produces seasonal food 
security early warning and climate information products. In Uganda and 
Kenya, these reports have been used to advise farmers on planting of 
early maturing and drought resistant crops, as well as maintenance of 
cattle watering points.
    In Ethiopia, USAID has supported the diversification of drought 
tolerant crops, such as sweet potato and cassava. Seeds are distributed 
to farmers in areas that are predicted to have below normal rainy 
seasons. To mitigate future loss of crops to drought, this program is 
also introducing additional options to farmers currently planting one 
of the drought resistant options (e.g., sweet potato is promoted to 
those already planting cassava) because increasing agro-biodiversity 
reduces risk to climate change, both for food security and livelihoods.


                               __________

   Wall Street Journal Article Submitted by Senator Richard G. Lugar

             [From The Wall Street Journal, Apr. 22, 2010]

                   A New Initiative to Feed the World

Over the last few decades the developed world lost interest in 
agricultural development. Now's the time for change.
                  (By Timothy Geithner and Bill Gates)
    A year ago the world came together in a powerful and coordinated 
effort to restore the stability of our global economy. Thanks to the 
actions taken then, the world is beginning to recover from the most 
severe economic crisis since the Great Depression.
    But as we work to build a stronger, more stable and balanced global 
economy, we must renew our commitment to tackle global hunger and 
poverty. Because a world where more than one billion people suffer from 
hunger is not a strong or stable world. A world where more than two 
billion people in rural areas struggle to secure a livelihood is not a 
balanced one.
    Today, the United States, Canada, Spain, South Korea and the Bill & 
Melinda Gates Foundation are making a commitment to fight the threat of 
global food insecurity. Together we are launching the Global 
Agriculture and Food Security Program, a new fund to help the world's 
poorest farmers grow more food and earn more than they do now so they 
can lift themselves out of hunger and poverty.
    A steep rise in food prices in 2008 and the recent global economic 
crisis have pushed the number of hungry people in the world to more 
than one billion. As the world's population increases in the coming 
years and as changes in the climate create water shortages that destroy 
crops, the number of people without adequate access to food is likely 
to increase. As that happens, small farmers and people living in 
poverty will need the most help. They are the ones who cannot afford to 
grow crops or buy food when seed prices double. They are also the ones 
who face shortages when rainfall patterns change and reduce the amount 
of available water.
    We should not be facing this challenge today. In the 1960s and '70s 
the world understood that agricultural development was an indispensable 
tool in alleviating hunger, reducing poverty, and driving economic 
growth. A combination of new, high-yielding crops developed by 
scientists such as Norman Borlaug and sustained investments from the 
U.S. and other countries helped save hundreds of millions of people 
from starvation in India, Mexico and elsewhere.
    Yet during the past three decades the world's interest in 
agriculture waned. Donor nations moved on to focus on other issues. The 
result is that there has been a sharp drop in aid for agriculture. In 
1979, nearly 18% of all official development assistance world-wide went 
to agriculture. In 2008, about 5% did. Private investment in 
agriculture in Africa is insignificant. Today, many Africans face food 
shortages in part because the average African farmer produces half the 
amount of crops per acre of an Indian farmer, one-fourth that of a 
Chinese farmer, and just one-fifth that of an American farmer.
    Proposed last year by the G-8 and G-20, the new Global Agriculture 
and Food Security Program hosted by the World Bank will provide 
financing to low-income countries with high levels of food insecurity. 
It will partner with countries that have developed sound agricultural 
plans and that are already using their own resources to invest in the 
most effective ways to boost crop production. The fund's public-sector 
account will invest in infrastructure that will link farmers to 
markets, promote sustainable water-use management, and increase access 
to better seeds and technologies.
    But aid alone cannot unleash the potential of agriculture. Small 
farms need greater private-sector investments than they get now. That 
is why this fund will have a private-sector account that provides 
financing to increase the commercial potential of small and medium size 
farms and other agribusinesses.
    Some poor countries are already taking steps to increase 
agriculture productivity. Rwanda, for example, has increased its 
investment in agriculture 30% from 2007 to 2009 and recently reported 
that its agricultural production was up 15% over that period.
    The fund will build on this and other progress that is underway. It 
will provide a transparent way for donors to implement their commitment 
to agriculture and a predictable source of funding for developing 
countries. And it will provide recipient countries and civil 
organizations, as well as donors, with a strong voice in determining 
where investments are made.
    Thanks to the leadership of President Barack Obama, Secretary of 
State Hillary Clinton and Sen. Richard Lugar (R., Ind.), the 
announcement we will make today will be a significant step forward: our 
commitments total nearly $900 million from now until 2012.
    But creating this fund is only a first step. Last year, several 
wealthy nations pledged at least $22 billion over the next three years 
to agricultural development. Now they can join this fund to begin 
making good on their promises. Farmers and their families are in this 
for the long haul; we must be, too.
    Working together, we have an opportunity to create a world free of 
hunger and extreme poverty. Rural communities have waited too long for 
their farms to flourish. This time, as we return with renewed vigor and 
commitment to boosting agricultural development, let's sustain our 
focus until the job is done. Let's make history by learning from it.
                                 ______
                                 

   Letter From the Association of Public and Land-grant Universities

                                                    April 22, 2010.
Hon. Richard G. Lugar,
U.S. Senate, Hart Senate Office Building,
Washington, DC.

Hon. Robert P. Casey,
U.S. Senate, Russell Senate Office Building,
Washington, DC.
    Dear Senators Lugar and Casey: The Association of Public and Land-
grant Universities strongly endorses your continued efforts to pass 
S.384, the Global Food Security Act. We are greatly encouraged that you 
are working collaboratively with the House sponsor, Rep. McCollum, and 
that the Administration is working with you to bring this bill to the 
President's desk this year. Many of our universities have already 
contacted their Senators asking them to support S.384. They will 
continue to do so.
    We believe S.384, particularly Title III, will ensure that U.S. 
colleges and universities will be an important part of advancing key 
foreign policy objectives of reducing world hunger by increasing 
agricultural productivity. Institutions of higher education in the U.S. 
have historically played a critical role in international development, 
particularly in agriculture. They are essential in building the human 
and institutional capacity in developing countries necessary for 
sustained economic growth. Unfortunately, over the past 20 years, the 
U.S. foreign assistance strategy has under-invested in agriculture and 
under leveraged the resources of colleges and universities to help 
address critical global development problems. Your bill is a major step 
in correcting these practices.
    While a number of factors were responsible for the acute global 
food crisis of two years ago, one of the major causes was a decline in 
agricultural productivity in developing countries. S.384 will commit 
the U.S. to increased investment in agriculture, which accounts for as 
much as 70% of the GDP in many developing countries, in part by 
engaging U.S. colleges and universities in collaboration with higher 
education institutions in developing countries to build the research, 
training, and extension capacities. This is consistent with U.S. 
foreign policy interests, and enhances the overall objectives of the 
legislation.
    Again, thank you very much for your important legislation. We look 
forward to continuing to work with you for its enactment.
            Cordially,
                                           Peter McPherson,
                                                         President.
                                 ______
                                 

     Letter From International Relief and Development Organizations

                                                    April 21, 2010.
Senator Richard G. Lugar,
Hart Senate Office Building,
Washington, DC.

Senator Robert P. Casey, Jr.,
Russell Senate Office Building,
Washington, DC.

Senator Richard Durbin,
Hart Senate Office Building,
Washington, DC.
    Dear Senator Lugar, Senator Casey, and Senator Durbin: The 
undersigned international relief and development organizations applaud 
your leadership in promoting global food security with the introduction 
of the Global Food Security Act (S.384). We have long fought for the 
underlying principles driving the legislation and are pleased that the 
walls of Congress are beginning to echo our cries.
    Solutions are needed to address the estimated 1 billion people that 
suffer from chronic food insecurity. Lasting improvements in food 
security can be reliably ensured with adequate financial and technical 
resources for sustainable agricultural development. Studies show that 
investments in agriculture produce the highest returns in rural poverty 
alleviation and increased food security. In addition, when emergency 
food assistance is necessary, aid must be structured in a way that 
vulnerable families do not have to wait four to six months for U.S. 
food shipments to arrive.
    The bill not only addresses the emergency needs of those suffering 
from the ongoing food crisis, but offers long term food security 
solutions by investing in agriculture and rural development. We are 
heartened by the legislation's recognition of the critical role that 
women throughout the world play in agriculture and family nutrition. By 
providing assistance in forms that benefit the women working on family 
farms using local resources, your bill promises efficient and effective 
investment in food production and well-being for those who need it 
most. In addition, we welcome the introduction of a Special Coordinator 
for Global Food Security and support its integration into a modernized 
foreign assistance strategy.
    We look forward to working with you on this important issue and, on 
behalf of hungry families around the world; we thank you for your 
leadership.
            Sincerely,
                    ACDI/VOCA; Adventist Development and Relief Agency 
                            International; The Alliance to End Hunger; 
                            Bread for the World; CARE; The Christian 
                            Reformed World Relief Committee; 
                            Congressional Hunger Center; ECHO; Food for 
                            the Hungry; Foods Resource Bank; Friends of 
                            the World Food Program; Heifer 
                            International; Helen Keller International; 
                            The Hunger Project; International Center 
                            for Research on Women; International 
                            Medical Corps; Lutheran World Relief; ONE; 
                            Oxfam; Partnership to Cut Hunger and 
                            Poverty in Africa; Relief International; 
                            Save the Children; Women Organizing for 
                            Change in Agriculture & NRM; Women Thrive 
                            Worldwide; World Cocoa Foundation; World 
                            Relief; World Wildlife Fund.
                                 ______
                                 

        Article Submitted by Catherine Bertini and Dan Glickman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
